<html>
<title> - THE FINDINGS AND RECOMMENDATIONS OF THE DEPARTMENT OF DEFENSE INDEPENDENT REVIEW RELATING TO FORT HOOD</title>
<body><pre>[Senate Hearing 111-821]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-821
 
     THE FINDINGS AND RECOMMENDATIONS OF THE DEPARTMENT OF DEFENSE 

                INDEPENDENT REVIEW RELATING TO FORT HOOD

=======================================================================



                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 21, 2010

                               __________

         Printed for the use of the Committee on Armed Services




        Available via the World Wide Web: http://www.fdsys.gov/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
63-686                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

     The Findings and Recommendations of the Department of Defense 
                Independent Review Relating to Fort Hood

                            January 21, 2010

                                                                   Page

West, Hon. Togo D., Jr., Co-Chair, Department of Defense 
  Independent Review Relating to Fort Hood.......................     5
Clark, ADM Vernon E., USN [Ret.], Co-Chair, Department of Defense 
  Independent Review Relating to Fort Hood.......................     8
[Annex: The Report of the DOD Independent Review ``Protecting the 
  Force: Lessons from Fort Hood'' follows:]......................    46

                                 (iii)


     THE FINDINGS AND RECOMMENDATIONS OF THE DEPARTMENT OF DEFENSE 
                INDEPENDENT REVIEW RELATING TO FORT HOOD

                              ----------                              


                       THURSDAY, JANUARY 21, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to the notice, at 9:30 a.m. in 
room SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, E. Benjamin Nelson, Hagan, Burris, Kirk, McCain, Inhofe, 
Chambliss, Thune, LeMieux, Burr, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Gabriella Eisen, counsel; 
Jessica L. Kingston, research assistant; Gerald J. Leeling, 
counsel; Peter K. Levine, general counsel; Jason W. Maroney, 
counsel; and William K. Sutey, professional staff member.
    Minority staff members present: Diana G. Tabler, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Kevin A. Cronin, Paul J. Hubbard, 
and Jennifer R. Knowles.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Vance Serchuk, assistant to Senator 
Lieberman; Carolyn A. Chuhta, assistant to Senator Reed; Nick 
Ikeda, assistant to Senator Akaka; Ann Premer, assistant to 
Senator Ben Nelson; Juliet M. Beyler and Gordon I. Peterson, 
assistants to Senator Webb; Jennifer Barrett, assistant to 
Senator Udall; Roger Pena, assistant to Senator Hagan; 
Roosevelt Barfield, assistant to Senator Begich; Nathan Davern, 
assistant to Senator Burris; Ron Carlton, assistant to Senator 
Kirk; Anthony J. Lazarski, assistant to Senator Inhofe; Lenwood 
Landrum and Sandra Luff, assistants to Senator Sessions; Clyde 
A. Taylor IV, assistant to Senator Chambliss; Adam G. Brake, 
assistant to Senator Graham; Jason Van Beek, assistant to 
Senator Thune; and Molly Wilkinson, assistant to Senator 
Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to consider the findings and recommendations 
of the independent panel appointed by the Secretary of Defense 
following the tragedy at Fort Hood. The primary objective of 
the panel was to ``determine whether there are programs, 
policies, or procedural weaknesses within the Department of 
Defense (DOD) that create vulnerabilities to the health and 
safety of defense employees and their families.''
    Today's open hearing is on the panel's unrestricted report. 
A restricted annex to their report titled ``Oversight of the 
Alleged Perpetrator,'' focuses on information which in the 
judgment of DOD could prejudice a criminal prosecution if it 
were discussed in public. We'll have a closed session after 
this open hearing has concluded.
    Our witnesses this morning are Togo West, former Secretary 
of the Army, and Admiral Vernon Clark, U.S. Navy-Retired, 
former Chief of Naval Operations, who together co-chaired this 
independent review. We have reviewed their unrestricted report. 
Members have had an opportunity to review the restricted annex. 
We welcome you both. We thank you for returning to government 
service for this very important task. It's a continuation of 
your great patriotism and loyalty.
    On the afternoon of November 5, 2009, an Army field-grade 
officer, Major Nidal Hassan, opened fire on fellow soldiers in 
the Soldier Readiness Center at Fort Hood, TX, killing 12 
soldiers, 1 civilian, and wounding or injuring 43 others. There 
is information in the public domain indicating that this tragic 
and violent incident was preceded by a number of indicators 
that would seemingly raise questions about Major Hassan's 
fitness to serve as an officer and Army psychiatrist. Some of 
those indicators were email contact with a radical Muslim 
cleric in Yemen, concerns about his expressed belief that 
sharia religious law took precedence over the U.S. 
Constitution, presentations that he made that for some of the 
witnesses indicated sympathy for violence, and concerns 
expressed by superiors and peers about his duty performance and 
his ratings.
    So there's a connect-the-dots issue here. There are a 
number of other investigations that will examine the failure to 
connect those dots. That is not part of today's open hearing. 
DOD's inquiry is one of several inquiries that are or will be 
examining the incident. The President has directed a review of 
intelligence matters related to the shooting, the Federal 
Bureau of Investigation (FBI) is conducting a review of its 
procedures, and a military justice investigation is ongoing.
    The review that we will consider today was a first 
assessment of the Department's policies and procedures to 
identify gaps that warrant further investigation and action. 
Clearly there is much more that needs to be done. The Secretary 
of Defense has committed to tasking each Service and pertinent 
DOD agencies to conduct an in-depth follow-on review based on 
the findings of this report.
    The Secretary of Defense gave this independent panel less 
than 60 days to conduct a quick-look review ``to identify and 
address possible gaps and/or deficiencies in DOD's programs, 
processes, and procedures related to identifying DOD employees 
who could potentially pose credible threats to themselves or 
others, the sufficiency of DOD's force protection programs, the 
sufficiency of DOD's emergency response to mass casualty 
situations at DOD's facilities, and the response to care for 
victims and families in the aftermath of a mass casualty 
situation, and, finally, the execution and adequacy of Army 
programs, policies, and procedures as applied to the alleged 
perpetrator.''
    The panel completed its work and delivered its report to 
the Secretary of Defense on time, and that is remarkable, given 
the short period of time over the holidays that the panel was 
given for this task. This could only be done under the strong 
leadership of our witnesses, who co-chaired the independent 
panel.
    A copy of the report of the DOD Independent Review titled: 
``Protecting the Force: Lessons from Fort Hood,'' will be 
included in the record of this hearing.
    [The information referred to follows:]

    [See Annex.]

    Chairman Levin. The independent panel made a total of 42 
findings with associated recommendations in the basic report, 
with an additional 12 findings in the restricted annex. The 
panel gives Fort Hood high marks for a quick and effective 
response to this incident, while recognizing that DOD can and 
should do more to prepare for multiple simultaneous incidents 
in the future.
    The panel found that some programs, policies, processes, 
and procedures were adequate, but were not complied with, and 
other policies are in need of revision to give commanders the 
tools that they need to counter internal threats as well as new 
threats that may manifest themselves in the future.
    The report produced by this independent panel gives DOD a 
blueprint for additional reviews and resulting policy changes. 
For instance, the Department will need to evaluate and update 
policies and procedures for identification of indicators of 
violence, clarify policy regarding religious accommodation, 
review and improve military personnel records, and refocus 
defense force protection programs on internal threats.
    This committee has a continuing interest in the findings, 
recommendations, and changes made based on these reviews. It 
will continue its oversight of DOD actions, and I assume this 
will be the first of a number of hearings into this incident, 
how it could have been avoided and how we can deter similar 
tragedies in the future.
    Before I close, I want to commend the soldiers, the first 
responders, the law enforcement personnel, and the health care 
providers for their prompt, professional, courageous acts that 
prevented an even greater loss of life as a result of this 
horrendous act.
    I would also like to insert for the record Senator Burris' 
statement.
    [The prepared statement of Senator Burris follows:]
             Prepared Statement by Senator Roland W. Burris
    Thank you, Mr. Chairman, and welcome Secretary West and Admiral 
Clark. I am again pleased with both of your taking on this most 
important effort to look at the lessons learned as a result of the 
tragedy at Fort Hood. The Nation, and more importantly, the families, 
are looking to all of us to make sense of this situation and provide 
them with answers and solutions to ensure that this type of incident 
does not occur in the future. The members of our military have 
performed, and will continue to perform, their duties with honor and 
integrity, and it is incumbent upon us to provide them the guidance and 
oversight that they deserve.
    I thank you for your testimony and your service to the Nation.

    Chairman Levin. Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. I thank you, Mr. Chairman, and I join you 
in welcoming Secretary West and Admiral Clark, and I thank them 
for their continued service to their country, and I thank them 
and their staff for their work in conducting this independent 
examination of the tragic events last year at Fort Hood.
    I agree with the statement in your report that ``the events 
of November 5, 2009, are first and foremost a tragedy for all 
involved; families, colleagues, and the Nation.'' My thoughts 
and prayers continue for the families and friends of the 
victims of this terrible tragedy.
    I appreciate that DOD initiated this review to scrutinize 
itself with regards to organizational shortcomings that led to 
the horrific killings of 12 servicemembers, 1 Army civilian, 
and the wounding of 43 others. However, most of your report is 
devoted to personnel policies and emergency shooting response 
procedures. The report concentrates on actions and effects, 
rather than the motivations. But it was motives that led to the 
Fort Hood killings that should have been examined, whatever the 
political correctness implications. The panel's effort to 
assist DOD and the American people to understand the threat to 
national security and to our military personnel was undermined 
as a result.
    We have a profound responsibility to try to prevent harm to 
all Americans, especially those who volunteer for service in 
the Armed Forces and have, as a result, become high-value 
targets for our enemies. I find insufficient information in 
this report to advance the identification and elimination of 
this threat.
    The omission in your report of adequately recognizing and 
addressing the specific threats posed by violent extremism to 
our military servicemembers is troubling. We owe it to our 
servicemembers and their families to be very candid in 
addressing the threat of violence driven by violent Islamic 
extremism.
    I believe General Jack Keane, the former Vice Chief of 
Staff of the Army, made the point clearly in his testimony on 
November 19, 2009, when he said that: ``We need to provide a 
service to all Muslims serving in the Armed Forces by clearly 
describing the threat, explaining the indicators of potential 
problems, and obliging all military personnel to report 
individuals who display these beliefs and actions.''
    I believe the information you have compiled in the 
restricted annex to this report regarding failures in the 
performance of officers who supervised Major Hassan during his 
medical education will help to ensure accountability and 
corrective measures. Much of this information, not 
surprisingly, has been leaked to the media and it portrays a 
system badly in need of reevaluation and reform.
    I expect the Secretary of the Army to move quickly to 
ensure accountability for the shortcomings you identified and 
to demand more from our officers and organizations. They should 
have the courage and integrity to identify substandard officers 
who represent potential threats to those around them. I hope 
you can comment today on what we can expect in this regard.
    I also believe that your findings and recommendations will 
have value in prodding DOD and the Services to take on the 
challenge of identifying the legal and regulatory barriers to 
information-sharing called for in the report. There is an array 
of concerns that must be addressed in this regard. Concerns 
about individual privacy, threat of litigation, equal 
opportunity violations, First Amendment rights, medical 
privacy, including stigma from seeking treatment, and abuse of 
authority are just a few. They represent a Gordian Knot that 
has to be cut.
    What happened at Fort Hood was something more than an 
isolated incident, more than a random act of violence by an 
alleged perpetrator. It was a terrorist act, struck against us 
as part of the broader war in which we are now engaged. Without 
focusing on the threat posed today by violent Islamic extremism 
to our military and their families, we can't address those 
vulnerabilities and correct them.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Now let me call on you, Secretary West.

 STATEMENT OF HON. TOGO D. WEST, JR., CO-CHAIR, DEPARTMENT OF 
        DEFENSE INDEPENDENT REVIEW RELATING TO FORT HOOD

    Mr. West. Thank you, Mr. Chairman, Senator McCain, and 
distinguished members of the committee, for the opportunity to 
testify before you on this important matter. I wonder if I 
might do one or two quick housekeeping things. You have from us 
our written opening statement. It is a joint statement by both 
Admiral Clark and by me, and we would ask you to include that 
in the record.
    Chairman Levin. It will be.
    Mr. West. With that, we will give a few comments, a bit of 
a roadmap to what's in our report, although we're aware that 
you have had a chance to look through it. I will do the first 
group and then, if you will permit, Admiral Clark will take up 
from there.
    Chairman Levin. That would be fine. Thank you.
    Mr. West. As you pointed out, Mr. Chairman, and you also, 
Senator McCain, that day--November 5, 2009--was a day of 
tragedy, and we will all remember it as such. Out of that 
tragedy, there are some instructive lessons for us, and those 
are what we address in our report.
    As you pointed out, Secretary Gates was specific in what he 
asked us to do, contained both in a memorandum to us in his 
terms of reference and in his statement at his press 
conference. That is important to us because it bounds our 
undertaking, as did the time within which we were asked to 
complete our work, and also as did the fact that he had already 
indicated his intention to have a lengthier, more in-depth 
follow-on review of both our report and the issues that we 
raise by the Services. He has already begun the process of 
referring the report out for their follow-on activities.
    As you pointed out, we were asked to look at personnel 
policies, specifically those that pertain to our ability to 
make identifications of those who are a risk, a danger to their 
fellows in the Service, to look at how those policies, 
practices, and procedures allow us to deal with, after we have 
identified those threats, and look at the ways in which there 
are gaps or deficiencies--his language--that we need to improve 
upon going forward.
    He also asked us to look at force protection measures with 
the same idea, not just in the Army, but across the board in 
DOD, and the Office of the Secretary of Defense (OSD) 
procedures and regulations at the level of every Service.
    Third, to look at our preparations and our policies 
concerning preparations for mass casualty events and for 
responding to them.
    Finally in that group of four, to look at how we provide 
for the support of those who provide needed medical care to 
those who serve.
    The fifth assignment that he gave us was a very 
specifically stated one and it's in one of the annexes to our 
report, and that is this: to examine the Army's application of 
its procedures and policies to the alleged perpetrator. I make 
that distinction because he did not ask us to go and explain 
what happened, although it certainly, I think, would appear to 
all of us, you and we as well, that without an understanding of 
what happened we certainly couldn't understand how the Army 
applied its policy. But our purpose, our direction, was to 
understand the Army's application of its policies and 
procedures to the perpetrator. That is what is contained in our 
annex 5.
    I should say to you as part of an understanding of how we 
organized and prepared for this that that was, in our view, 
going to be simply chapter 5 of a report that we would submit 
to you today for review. After review, departmental lawyers 
concluded, and I think they concluded properly, that there was 
a great risk of interfering with the military justice, the 
criminal proceeding, and that is why it is submitted to you as 
a restricted annex.
    With that in mind, we were told not to interfere with the 
intelligence investigation that had proceeded, nor with the 
military justice, nor with the ongoing parallel FBI review, and 
we've made an attempt not to do so. What we did do was to 
organize ourselves into five teams, supported by personnel whom 
we requested and were assigned to us from the military 
departments and from OSD. Each of these teams looked into the 
specific areas that we have described in the report, submitted 
their report of their activities to us, and Admiral Clark and I 
and those who worked directly with us, took responsibility for 
reviewing and stating our conclusions and our views with 
respect to that.
    Our personal views are found throughout the report, but 
they are specifically called out in the executive summary, 
which you note we took the step of signing ourselves so that 
you would know that the words of the executive summary come 
from us, including those five or six recommendations that are 
for specific early action by the Secretary of Defense. Let me 
report that he has already taken some of those actions as we 
speak.
    We also had a board of advisers drawn from the senior ranks 
of the Department, the military ranks, whose purpose was not to 
lead a team, although two of them were team leaders, but merely 
to review as we went and provide an overall perspective of what 
we were looking at and how we were stating it and how it would 
affect real progress for the Department in terms of responding 
to what had happened. Their help to us was invaluable, because 
when you think about it, otherwise the Admiral had himself and 
me to bounce these things bounce and forth, to discuss. The 
board of advisers gave us an additional group with the same 
broad range.
    A word or two at this point from both Admiral Clark and me 
about the actual landscape of the report. What you have before 
you has five chapters with an executive summary at the front 
and with some annexes. The first chapter is a very brief, one-
page synopsis that we thought we could state in a public 
report, that is much more dealt with in detail in the annex, 
and that is about the alleged perpetrator.
    Chapters 2, 3, 4, and 5 are the bulk of what the Secretary 
asked us to look at. I call your attention to chapter 2, which 
is about the personnel policies, which is divided into three 
sections, one having to do with how we identify the kinds of 
things that can lead a person to become a danger to his or her 
colleagues. A second part of it has to do with sharing that 
information, getting it to the right place. I point out to you 
that in our finding 2.2 in that report we acknowledge a 
specific difficulty and that is the fact that information that 
is obtained in one place does not always go forward with a 
servicemember to successive assignments, thus making it 
difficult for commanders to know exactly what they're dealing 
with. The third section in chapter 2 has to do with barriers to 
action.
    Three observations before I ask your permission to have 
Admiral Clark take on the description to you of other parts of 
the report. The first is this: There can never be too much 
preparation. In some ways, we could say that no matter how much 
preparation you've done there is more that could be done. At 
Fort Hood, the leaders had anticipated mass casualty events in 
their emergency response plans, and it showed in their 
responses. As you have acknowledged, Mr. Chairman, and as also 
did Senator McCain, the response was prompt. Within 2 minutes 
and 40 seconds of the first 9-1-1 call, first responders were 
on the scene of the shooting, and by first responders I mean 
elements of the Fort Hood security forces. Within a minute and 
a half after that, the assailant had been taken down, and 
within 2 minutes and 50 seconds after that two ambulances and 
an incident command vehicle from the post hospital had arrived 
to begin to dispense needed medical care.
    Lives were saved. Yet, as you have pointed out, 13 people 
died and scores others, 43, were wounded. We must prepare 
better, plan more intensively, and take the hard effort to look 
around the corners of our future to try and anticipate the next 
potential incident.
    Second, we must be attentive to today's hazards. Today the 
requirement that is imposed upon us in DOD is to understand the 
forces that cause an individual to radicalize, to commit 
violent acts, and thereby to make us vulnerable from within.
    Finally, the thread through all of this is violence, how do 
we detect the indicators of violence, how do we share the 
information about those indicators, and then whether we have 
the foresight to act.
    Thank you, Mr. Chairman, and with your permission Admiral 
Clark will take it from here.
    Chairman Levin. Thank you so much, Mr. West.
    Admiral.

    STATEMENT OF ADM VERNON E. CLARK, USN [RET.], CO-CHAIR, 
 DEPARTMENT OF DEFENSE INDEPENDENT REVIEW RELATING TO FORT HOOD

    Admiral Clark. Good morning, Mr. Chairman. I appreciate the 
opportunity to be with you today to talk about the work of 
Secretary West and myself and the group of people who worked 
with us in this effort.
    Let me make a few comments and get right to the questions. 
I know that you have questions for us, so first let me talk 
about force protection for a moment. The principal message of 
our review with regard to force protection is simply this: 
There are lots of policies on force protection inside DOD. 
Since September 11, we have built many barriers. However, 
existing policies simply are not optimized to deal with the 
insider threat, the evolving threat that we see today--and when 
people talk about the new threat, we're talking about the 
insider threat.
    Now, complicating the entire force protection challenge is 
the diverse nature of the way DOD has evolved since September 
11, 2001. So one of our recommendations to the Secretary was 
that you have to look at the organization itself. On page 25 of 
the base report, you find a description of the various Under 
Secretaries and Assistant Secretaries of Defense that are 
charged with responsibilities for working the force protection 
challenge. Synchronization is difficult and, simply stated, no 
senior DOD official is assigned overall responsibility for 
synchronizing this policy.
    Notice, I'm not saying that one person should have all that 
responsibility. Neither is Secretary West. We were careful not 
to define the specific organization for the Secretary of 
Defense. Our observation is synchronization is pretty difficult 
the way it's set up, the way it is today, and we recommend that 
it be looked at. The key point, too, is that there has to be a 
mechanism in place to do this integration, and that's our 
recommendation.
    Second, the task of identifying employees who potentially 
could threaten the workforce--and I ask us to remember that the 
Secretary asked us to look at violence. So the question is, how 
do we identify individuals who have the potential for violent 
behavior. Certainly in our research we found that detecting a 
trusted insider's intention to commit a violent act requires 
observation skills that may not be in place. This is the 
evolving threat.
    So there's a requirement to understand behavioral cues and 
anomalies that would alert commanders and supervisors to know 
that such a threat exists. While DOD focuses very effectively 
on many things, there is insufficient knowledge and guidance 
concerning who this insider threat is: Who are these people? 
There is insufficient guidance on workplace violence and, most 
importantly, how to identify the person who has the potential 
to self-radicalize. In our view it is simply insufficient.
    The key word here is ``violence.'' Now, since our report 
has come out some have criticized us for not suggesting and 
talking enough about violent Islamic extremism. When we talk 
about self-radicalization, and the term appears numerous times 
in our report, we're talking about the behaviors that create 
and lead to violence. That's what we're talking about. The lack 
of clarity for comprehensive indicators limits the commanders' 
and supervisors' ability to recognize the potential threats. 
Fixing this issue will be critical to solving this problem in 
the future.
    DOD policy on prohibited activities--and I have the 
instruction here with me that talks specifically about what 
prohibited activities are inside the Department--this 
instruction in our view is too limited and it only addresses 
active and very visible participation in groups that may pose 
threats to good order and discipline inside the ranks.
    So we found that this lack of clarity for comprehensive 
indicators which limit commanders' and supervisors' ability to 
recognize the potential threats--we're talking about people who 
could hurt themselves. The Secretary of Defense cited 
specifically, people could hurt themselves, for example the 
issue of suicide, criminal and gang behavior, people that are 
advocating supremist doctrine, family violence, evolving 
threats like self-radicalization--identifying these key 
indicators is critical to focusing the force on the threat.
    Let's talk about information sharing. Secretary West 
addressed it also and let me just make a couple of points. The 
policies governing information exchange inside the Department 
and in the intergovernment system, in our view the policies are 
deficient. They do not support detection and mitigation of the 
internal threat.
    DOD and Service guidance does not provide for maintaining 
and transferring relevant information from one duty station to 
the other. Now, remember we're doing phase one of this. As you 
talked about, Mr. Chairman, we did this review in a hurry. 
That's what the Secretary of Defense wanted us to do. Thousands 
of pages of review, but put the spotlight on the things that 
the Services can fix in a hurry. It is our view that this 
internal information exchange has to be examined.
    In other words, how can commanders connect the dots if they 
don't have some information that's maintained at a local level 
and hasn't transferred from one command to another. I will tell 
you that automated systems inside the Services do not allow 
them to share information on, for example, registered users and 
persons who routinely come and go from a base and may become a 
threat.
    So the issue of maintaining and transferring all of the 
relevant information, information that could lead to the 
identification of contributing factors, that's the issue.
    Last Friday, the Secretary of Defense, in his press 
conference, stood and addressed his observations about our 
report. One of the things that I was happy to see him address 
was his comment that Secretary West and I are of the view that 
we have to become more adaptable and certainly we have to be 
proactive, but we have to be able to adapt rapidly to this 
changing security environment, bringing a wide and continuously 
evolving range of tools, techniques, and programs into play.
    I just want to emphasize that there's no single-point 
solution for this evolving threat. We have to keep working at 
it. We need architectures and structures in place that will 
make that possible.
    One other point about information sharing. Certainly robust 
information sharing is essential. Hand in glove with that 
information sharing is the required command and control 
apparatus, be it systems, policy, doctrine, tactics, 
techniques, and procedures, to convert this information into 
timely decisions and actions.
    The bottom line, Mr. Chairman, members of the committee: We 
have to remove the barriers, all of the barriers. We have to 
equip and enable the commanders, people in decisionmaking 
positions, their ability--Mr. Chairman, you used the phrase--to 
connect the dots. We have to get the information and thus the 
indicators to the appropriate level of people in command.
    Just a couple of comments about emergency response. 
Secretary West addressed this. Mr. Chairman, you also certainly 
did justice to the brilliance of the people at Fort Hood and 
their actions. Lots of good news related to the emergency 
response.
    Mr. Chairman and members, I just wanted to try to put this 
in perspective. I committed my life in service for 37 years. I 
created in those 37 years a number of lessons learned myself, 
and I heard dozens of lessons-learned reports. On the second 
day that our team was in existence, Secretary West and I got on 
a plane with a few members of our team and we went to Fort 
Hood. We walked the ground and they showed us the space where 
all of this happened and looked at the terrain. Then we sat 
down with General Kohn and his command team and they gave us 
this presentation that had been turned in a matter of a few 
days, their lessons learned. I want to tell you that I was 
really impressed.
    So I heard a lot of them in my 37 years and I want you to 
know that I never ever heard a better one than I heard at Fort 
Hood that day. The base personnel were ready to respond. They 
had trained at this, they had worked at it. Secretary West 
talked about the timeline response to the active shooter. It 
was brilliant.
    All of that said, it still could have been better, and in 
our review we found areas where it could be better. In their 
own lessons learned they identified areas where it could be 
better. I spoke in the last subject about the command and 
control system. They need a better system. General Kohn had to 
deal with misinformation, and should anybody be surprised? I 
don't think so. There's never been a crisis ever that there 
wasn't misinformation. Being able to deal with it in a rapid 
way and being able to deal with a potential multiple event, Mr. 
Chairman, as you indicated, is critical.
    Fundamentally we believe that we can improve by providing a 
well-integrated means to gather and evaluate and disseminate 
the wide range of information that will make it possible for 
commanders to perform to the maximum.
    This report is about focusing on better tools for 
commanders. This report is about focusing on violence 
prevention, in whatever form that violence manifests itself. 
This report is about adapting and evolving to rapid change, 
sharing information, connecting the dots, and exercising 
against the most stressing and pressing scenarios that we know 
how to present, so that we satisfy ourselves that we are able 
to perform to the standards that we have identified ourselves.
    I want to close by just acknowledging my alignment with all 
the comments that have been made about the people at Fort Hood, 
the families that have suffered loss, and just say that the 
thrust of our work has been to do everything that we know how 
to do to identify policies, procedures, practices, and programs 
that can be made better, so that the U.S. Armed Forces continue 
to be the outstanding force that it is today.
    Thank you very much, Mr. Chairman, and I look forward to 
your questions.
    [The joint prepared statement of Mr. West and Admiral Clark 
follows:]
 Joint Prepared Statement by Hon. Togo D. West, Jr. and ADM Vernon E. 
                           Clark, USN (Ret.)
    Chairman Levin, Senator McCain, distinguished members of the 
committee: We appreciate the opportunity to appear before you and 
discuss the findings and recommendations of the Department of Defense 
Independent Review Relating to Fort Hood.
    Two months ago, a gunman opened fire at the Soldier Readiness 
Center at Fort Hood, TX. Thirteen people were killed and 43 others were 
wounded. November 5, 2009 will be remembered as a day of great tragedy. 
We extend our deepest sympathy to the families of the fallen, to the 
wounded, to their families, and indeed all touched by this tragic 
event.
    Following the shooting, Defense Secretary Robert M. Gates 
established the Department of Defense Independent Review Related to 
Fort Hood, and asked that Admiral Clark and I lead it. We have done so 
and report on it today. Events such as the Fort Hood shooting raise 
questions about how best to defend against threats posed by external 
influences operating on members of our military community. The 
challenge for the Department of Defense (DOD) is to prepare more 
effectively for a constantly changing security environment. It is with 
that backdrop in mind that Secretary Gates asked us to conduct our 
review.
    Secretary Gates charged us to provide an independent review and 
assess whether there are programs, policies or procedural weaknesses 
within DOD that create vulnerabilities to the health and safety of our 
service men and women, DOD civilians, and their families. Dr. Gates 
asked that we take a careful look at personnel policies, force 
protection measures, emergency response procedures and support to our 
military health care providers. He asked us to evaluate the Army's 
application of its policies, programs, processes, and procedures to the 
alleged perpetrator.
    We established a board of advisors with senior officers from the 
four Services. We constituted five review teams, consisting of a range 
of experts, who investigated the key tasks outlined in our terms of 
reference. The teams had unrestricted access to personnel and 
facilities. The teams traveled to Fort Hood as part of their review.
    Our charter directed us to focus on the noncriminal aspects of the 
shooting. Although Fort Hood was central to our review, our scope 
extended across the entire Department in order to gather the most 
significant and meaningful findings and recommendations. As recognized 
by the Secretary of Defense in stating that he intends to call upon the 
military departments to conduct in-depth follow-on reviews based on our 
results, areas in our report will require further study. By design, we 
limited the depth of our report in areas that will be covered in 
follow-on reviews.
    We recently submitted our report to the Secretary of Defense. 
Before discussing the overall report, we note that we cannot address 
specifics with respect to the alleged perpetrator in open session, in 
order to preserve the integrity of the ongoing military justice 
process. We can tell you, however, that several individuals failed to 
apply professional standards of officership regarding the alleged 
perpetrator. We recommended the Secretary of Defense forward these 
issues of accountability to the Secretary of the Army. The detailed 
results and findings associated with the alleged perpetrator are found 
in a restricted annex that will not be publically released at the 
present time.
    The review was much broader than the assessment of the alleged 
perpetrator. With that in mind, our report includes recommendations to 
strengthen DOD's ability to prepare for and respond to potential 
threats. It is based upon research by our teams of more than 35,000 
pages from over 700 documents related to departmental policies, 
programs, processes, and procedures.
    Before discussing the details of our findings, we would like to 
highlight some observations from the tragic events on November 5.
    First, no amount of preparation is ever too much. Leaders at Fort 
Hood had anticipated mass casualty events in their emergency response 
plans and exercises. The initial response to the incident demonstrated 
this. It was prompt and effective. Two minutes and 40 seconds after the 
initial 9-1-1 call, Fort Hood first responders arrived on the scene. 
One-and-a-half minutes later, the assailant was incapacitated, taken 
into custody, and remained in custody handcuffed to a law enforcement 
representative for the next several chaotic hours. Two ambulances and 
an incident command vehicle from the post hospital arrived on the scene 
2 minutes and 50 seconds later to begin providing lifesaving emergency 
care. Yet 13 people died; scores were wounded. We will prepare harder; 
plan more diligently; seek to envision the next incident.
    Second, we must be attentive to today's hazard. Even as the role of 
our nation's military is to confront the external threat to our 
country, one of the most significant emerging concerns in the 
protection of our force is the internal threat. We need to develop a 
better understanding of the forces that cause a person to become 
radicalized; commit violent acts; and make us vulnerable from within.
    Third, courage and presence of mind in the face of crisis can carry 
the day. It happened at Fort Hood. Courageous acts were the key to 
preventing greater losses that day.
    As our report reveals, however, these attributes alone are not 
enough to protect our force. We must exercise the foresight necessary 
to identify the looming menace--self radicalization and its often 
resultant violence--and act preemptively.
    Our review of DOD policies, procedures, and processes revealed 
shortcomings in the way DOD is prepared to deal with internal threats, 
and in particular, the threat posed by troubled and potentially 
dangerous individuals and groups.
    Commanders are our key assets to identify and monitor internal 
threats. Existing policies, however, are not optimized for countering 
these threats. The policies reflect insufficient knowledge and 
awareness required to help identify and address individuals likely to 
commit violence.
    While the department focuses very effectively on many things, 
guidance concerning workplace violence and the potential for self-
radicalization is insufficient. DOD policy on prohibited activities is 
limited and only addresses active and visible participation in groups 
that may pose threats to good order and discipline. This lack of 
clarity for comprehensive indicators limits commanders' and 
supervisors' ability to recognize potential threats and detecting a 
trusted insider's intention to commit a violent act requires 
observation of behavioral cues/anomalies.
    Complicating the force protection challenge is the diverse nature 
of responsibilities as they have evolved within DOD since September 11. 
Because no senior DOD official is assigned overall responsibility for 
force protection policy, synchronization is difficult. Moreover, there 
is a lack of DOD policy integration. This has resulted in a lack of a 
well-integrated means to gather, evaluate, and disseminate the wide 
range of behavioral indicators that could signal an insider threat. 
Some policies governing information exchange, both within DOD and 
between outside agencies, are deficient and do not support detection 
and mitigation of internal threats. The time has passed when concerns 
by specific entities over protecting ``their'' information can be 
allowed to prevent relevant threat information and indicators from 
reaching those who need it--the commanders.
    As the Secretary indicated, we see a requirement to create the 
ability to adapt rapidly to the changing security environment, which 
requires anticipating new threats and bringing a wide and continuously 
evolving range of tools, techniques, and programs into play. Robust 
information sharing, therefore, is essential, along with the 
accompanying command and control structure to convert active 
information gathered on potential threats into decisions and actions, 
including dissemination of the analysis and assessments to the 
appropriate levels of command. While leaders at Fort Hood responded 
well under the stress of a rapidly evolving crisis, we are fortunate 
that we faced only one incident at one location. Real-time information 
sharing will be critical should we face a situation of multiple events.
    While all 50 States have complied with the Federal requirements for 
the National Incident Management System, designed for a synchronized 
response in crises, there are no established milestones to define 
initial and full capability within DOD. The timelines should be 
evaluated; doing so could lead to an umbrella plan for emergency 
response and recovery and ensure interoperability with all the States. 
Synchronizing the DOD emergency management program with this national 
guidance will ensure the Department can integrate effectively with all 
partners in response to any and all emergencies. Using common emergency 
management principles, we can prepare our military communities to 
respond to emergency from the smallest incident to the largest 
catastrophe.
    The response by the Fort Hood community in the aftermath of this 
tragedy serves as a reminder of the strength, resiliency and character 
of our people. We were very impressed with them, both military and 
civilian. In a community where we might have expected the fabric of 
trust to fray, it remained intact and grew stronger through mutual 
support. The thrust of our effort has been to do all that we can to 
prevent similar tragedies in the future.

    Chairman Levin. Thank you, Admiral. Thank you both very 
much.
    Let's try an 8-minute first round. The panel found that 
``DOD policy regarding religious accommodation lacks the 
clarity necessary to help commanders distinguish appropriate 
religious practices from those that might indicate a potential 
for violence or self-radicalization.'' I think what you're 
saying is that, obviously, this country believes in tolerance 
of others' religions, but it can never be tolerant of violent 
radical views that are dressed up in religious garb. I think 
that's that point reworded.
    I couldn't agree with you more. Sometimes views that are 
clearly either inherently violent or promote violence are 
dressed up in religious clothing, and that automatically means 
that people who are sensitive to others' religious views then 
are put on the defensive right away, or reluctant right away to 
point out what is underneath the claim of religion.
    So the line has to be there. Obviously, we want to continue 
our tolerance, but we have to be much harder and much more 
intolerant of views that are radical, promote violence, or 
encourage violence.
    So my first question to you is about the policy of the 
Department, which is limited to and addresses only active 
participation in groups that pose threats to good order and 
discipline, is far too narrow a policy because of the self-
radicalization point--you don't have to participate in a group 
that poses that kind of a threat to be a threat yourself. My 
first question is how would you--and I know you're not here to 
provide remedies and that wasn't your job, but I assume that 
you agree that it's not just that that policy should be 
examined, but that in your judgment at least it's just simply 
too limited a policy. I'm wondering whether or not, for 
instance, you would agree that communication with a radical 
cleric who promotes violence is the kind of conduct that should 
raise real questions. Would you agree with that, even though 
it's not active participation at that point? It's just simply 
communication, asking someone for their recommendations and 
views. Would you agree that that ought to be raising great 
suspicion, without getting into this particular case?
    Mr. West. Mr. Chairman, I would certainly agree. I think we 
both would. I think your larger point that this is an example 
of, we would agree with as well, and that is that, yes, in the 
past perhaps membership alone in a group may have been less 
looked upon than the actual act of doing things, but in this 
environment we have to look at the group. We have to understand 
its purposes.
    It is already considered by some that there is a tool that 
enables a commander to declare certain kinds of action, 
including that, a threat to his immediate area's good order and 
discipline. But we think DOD can just simply strengthen the 
ability of commanders to look at and example exactly what kind 
of activity they are permitting and whether or not we can 
better define it.
    Membership in a group that has a record of active 
advocation of violence, as well as your point, communication, 
especially repeated communication--again, not referring to any 
particular case--with those who advocate violence, those are 
all signals that we need to be able to indicate in our 
publications and in our regulations commanders are authorized 
to look at and react to.
    Chairman Levin. Even if there weren't active participation 
or communication with radical persons who are promoting 
violence, even if there's simply the expression of views which 
promote violence without any information about participation in 
a group or communication with radical extremists--if somebody 
gets up and says, ``I believe that the Constitution comes in 
second and that my religious views come in first,'' would that 
not be that kind of a signal which ought to indicate some real 
genuine concern? Would you agree with that?
    Admiral Clark. I certainly do agree with it. It goes 
without saying that where we draw our red lines is a very, very 
important point. But you know, if you look at our history, we 
as a people as Americans have always been very careful about 
where we draw those lines.
    I so appreciate your introduction to this question by your 
comments about that we are a tolerant people. When I look at 
the DOD instruction here, it talks about what people can do 
when they're at work and things that they can't do at work, but 
they can do on their private time. What we're suggesting is 
that we have to better understand how people go through this 
process from being a non-radicalized person to radicalization 
and what does it mean.
    So I align with your comments completely. I want to make 
one other observation, Mr. Chairman. In our report, we talk 
about Active Duty members of the military, but DOD is much 
broader than just the Active Duty people in uniform. We 
understand that when Americans raise their right hand and take 
a pledge to serve in the Armed Forces that there are some 
freedoms that they set on the shelf. The challenge that we're 
facing here in security applies to everybody in DOD, and that 
includes civilians, contractors, and a whole other body of 
people.
    Then you could look at this and say, ``this is not just 
DOD; this is the whole of our Nation; and the whole of 
government.'' This is a real challenge that we face.
    Sir, you made the comment, when a shipmate hears a comment 
that's being made that is approaching a defined red line or 
crossing a defined red line, that we must make sure our people 
understand where those red lines are. That means we must have a 
very effective education program and outreach program, that 
people understand this is about our own security and the right 
to self-defense is absolutely not in question. We have the 
right to do that.
    Chairman Levin. People should not be afraid of reporting 
information that they believe in their good judgment represents 
a potential threat to good order and discipline and to the 
safety of the country or of their own group out of fear that 
that might be viewed by some as being intolerant of religious 
views. We have to simply allow people the freedom to report 
something which they believe is a threat to their group, their 
country, or to the individual himself or herself, and not be 
dissuaded by the fact that the views are dressed in some 
religious garb.
    Admiral Clark. Good order and discipline is the fabric upon 
which the greatness of the U.S. military is built, and we have 
to ensure that we do everything we know how to do to protect 
it.
    Chairman Levin. Secretary West, did you want to add 
anything to that?
    Mr. West. No. I think the Admiral caught the point I would 
have made, which is that we are sensitive to the fact that we 
are talking about expressions and expressions in many cases 
that pertain to religion--two different hits on the First 
Amendment. But as he pointed out, when a member takes an oath 
of office there are some things as to which he or she agrees to 
be regulated. We believe that where there is a clear connection 
with a potential for violence that would cause damage to one's 
fellows in the Service, this is a basis on which we can 
encourage the Department to act more clearly and more 
aggressively.
    Chairman Levin. My final question is this. You have not 
been given the charge of recommending remedies for where there 
are gaps. That's not part of your charge, although you freely 
responded to my questions this morning and I appreciate that. 
Who is in charge of responding with remedies to your 
recommendations? What is the timetable? Does this go right up 
to the Secretary of Defense and has he assured you that he will 
consider appropriate remedies within a certain timetable, or is 
there somebody else in the Department that's on the remedies 
side of what you've outlined here?
    Mr. West. The answer to your question is twofold. I'll take 
the second first, which is: Yes, in his follow-on review he is 
ordering two sets of things. He's in that process. I think some 
orders have gone out, but not others. One, he is going to ask a 
single member of his staff--we believe, but we don't want to 
commit him--it is his prerogative, not ours--perhaps the 
Assistant Secretary for Homeland Defense or Security--I'm not 
authorized to make that statement, don't know, but that's our 
belief--to conduct a follow-on review, but each of the Services 
also.
    Part of their job is to take this report--he will refer it 
to them--and to provide their recommendations as to how to 
implement. That's the answer to your second question.
    The first answer is in some ways you give Admiral Clark and 
me too much of a bye. The fact is his direction to us was to 
come up with action memo recommendations as well.
    Chairman Levin. All right. In that case, I withdraw that 
comment. Are your recommendations then to be acted upon in a 
certain length, period of time?
    Mr. West. I'm not clear.
    Chairman Levin. What I'm referring to is this. You say that 
there's inadequate clarity on the issue we've been discussing. 
The recommendation is a general one: Provide clarity. But it's 
not the specific clarity. It's just: You should provide 
clarity, Mr. Secretary. I couldn't agree with you more, but 
it's not what the new regulation should be. That's going to be 
left up to the Secretary. That's what I meant when I said you 
have not provided the specific new language that should be in 
place replacing the unclear language. That's what I meant by 
that.
    Now, is there a timetable?
    Admiral Clark. Yes, there is. There is a timetable, he 
announced it Friday.
    Chairman Levin. What is it?
    Admiral Clark. He wants first impressions back in March and 
he wants to wrap this up by June.
    If you read the language, we were very careful with our 
recommendations. First of all, you confirm the Secretary of 
Defense and that allows him to be the person who makes policy. 
We were very aware of the fact that at one point in our lives 
we were those people, but we're not those people today.
    So we suggested on numerous occasions he review policy 
because we thought there were holes or weaknesses or gaps. 
There were some places that the language is slightly stronger: 
It's absolutely clear to us that the policy is--and we say 
sometimes it's inadequate. But we teed it up in a way so that 
they could now put that spotlight on it, and he's given them 
the timetable.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I'm going to pick up on two things you mentioned, and the 
first one I'll be criticized for as not politically correct. 
But I'll make this statement. If you're around Washington and 
you're in these hearings, it's one thing. But when you go back 
to Oklahoma, as I do every week, it's another thing. I'm always 
hit up with this idea, because not only--we're talking about 
the Fort Hood thing now, but I could talk to you about Abdul 
Mutallab, the Christmas bomber. The extremist views were 
evident from the University College through London, and it goes 
on and on. The November 19, 2009, the father reports and we all 
know about that report. Late November, he was added to the U.S. 
550-name Terrorist Identities Datamart Environment (TIDE) and 
all this stuff.
    All this stuff is stuff that we knew. That's not in your 
purview, I understand that. But nonetheless, it's the same. A 
terrorist is a terrorist. That's what they do for a living: 
They kill people.
    I for one--I know it's not politically correct to say--I 
believe in racial and ethnic profiling. I think if you're 
looking at people getting on an airplane and you have X amount 
of resources to get into it, you need to get at the targets, 
not my wife. I just think it's something that should be looked 
into.
    The statement that's been made is probably 90 percent true, 
with some exceptions like the Murrah Federal Office Building in 
my State of Oklahoma. Those people, they were not Muslims, they 
were not Middle Easterners. But when you hear that not all 
Middle Easterners or Muslims between the ages of 20 and 35 are 
terrorists, but all terrorists are Muslims or Middle Easterners 
between the ages of 20 and 35, that's by and large true.
    I think that some time we're going to have to really--at 
least I'm going to have to have a better answer than I give the 
people back home, when people board planes or get into 
environments such as the environment that we're dealing with 
with this report.
    I guess nothing more needs to be said from you guys on 
this. Let me first of all say, which I should have said first, 
there are no two people I think are more qualified to do the 
job that you have had to do than the two of you. You've been 
good friends of mine for a long period of time.
    Now, something we can talk about, I think, a little more, a 
little easier. Your purview was really domestic, wasn't it? The 
continental United States (CONUS) was most of what you were 
talking about, was making the recommendations coming from what 
happened in the incident at Fort Hood. Did you look into 
outside the United States (OCONUS)? We have thousands and 
thousands of troops all over the world, and to me the threat is 
probably a little bit greater there than it would be here.
    What thoughts do you have on that, or maybe recommendations 
you could have on that, to expand what you're doing to include 
that?
    Admiral Clark. We certainly did, Senator. The first thing 
that comes to mind is, every base where we exist overseas, we 
have non-Americans working with us on the base. What are the 
processes and the procedures for vetting these people? So we 
challenge it. We have a section in the report that talks about 
security clearances and how people gain access.
    The second thing I talked about--identifying people who 
could become a threat, one of the things we have to look at is 
how we vet people in the OCONUS environment. I would suggest to 
you--and frankly, this would probably be better, the details of 
this we might talk about in closed session. But I would suggest 
to you that it was our conviction, and we would not have put it 
in the report if we didn't think that this was certainly a 
potential weakness.
    Mr. West. Might I add this, Senator. If we take the lesson 
of Fort Hood--and admittedly, we will talk more specifically 
when you have your closed session--we have to be reminded that 
the thesis on which we're dealing here is essentially, for this 
whole report, the threat from within: the member of the 
military family who then turns against his or her fellow 
soldier, airman, sailor, marine, or coastguardsman.
    The difficulty there, whether it is OCONUS or CONUS, is 
that with the universal access card, the ID, they can enter 
what should be the safest place either here or there, the base, 
the post, freely. With our automated systems now, we don't stop 
them for routine checks. So we can't--or we can. Certainly one 
of the lessons learned at Fort Hood was that they have now 
instituted some roving checks even of those who have the 
credentials.
    But the place to stop them, the insider who's the threat, 
is not at the gate. It is to identify him or her before they 
can get onto the post and do that act. That's why all those 
signs that we talk about, all the cues and behavioral 
indications, even the ones that the chairman mentioned, are 
important for us to reemphasize, to expand and to focus on, to 
make sure commanders have that information. That applies both 
here and overseas.
    Senator Inhofe. One of the things that was discussed here 
by the chairman was when can we move this along faster. I think 
you want to do that. We want to do that. We still have some of 
the recommendations of the 9/11 Commission that are not fully 
implemented and understood. So I would assume that you share 
those feelings.
    I was down at Fort Hood about 3 weeks before this incident. 
That was when we had two of our Oklahoma units that were 
deploying overseas and I was down there for that event. Then I 
went down afterwards for the event that took place after the 
tragedy.
    You had said--and I asked my staff to hand it to me so I 
could read it again. This is pretty remarkable, Mr. Secretary, 
when you said 2 minutes and 40 seconds after the initial 9-1-1 
call, installation first responders arrived on the scene. One 
and a half minutes later, the assailant was incapacitated. Two 
ambulances and incident command vehicles from the base were 
there 2 minutes and 50 seconds later. I mean, that's really 
moving.
    I would recommend, and maybe you've already done this, that 
you find out--not always looking at what is wrong, but learn 
from what was done right. In this case, I think it would 
probably serve us well to see how they did that remarkable job. 
I wanted to see it in writing after you'd said it, because I 
think that's remarkable. So I'd recommend you do that.
    Mr. West. It was remarkable, and we did think that one of 
our jobs was to find out if that was the result of good 
planning, courageous and fast action, was there an element of 
luck, and, if it was what we believed and what we've said, 
excellent planning and well executed, is there a lesson to pass 
across the force.
    One other thing I would add. I don't want to overdo--let me 
add it anyway. We tried as best we could to figure out what 
that meant, the passage of time from the first shot by the 
assailant to his last. That is, the whole event, because the 
uncertain part was how quickly the 9-1-1 call got in after the 
first shot was fired. The best we can make is that the whole 
shooting incident was ended by security forces between 7 and 8 
minutes after it started.
    Senator Inhofe. Were you surprised at that too, Admiral?
    Admiral Clark. I certainly was. This kind of a panel is 
supposed to find the things that are wrong. That's what we're 
supposed to do. But if you notice, we lead with some very 
strong statements about what we thought was right, because we 
wanted it up front that the people at Fort Hood did a fabulous 
job.
    I testified yesterday and the staff reminded me that I said 
``fabulous'' or ``excellent'' or ``outstanding'' 19 times 
yesterday. But I want to drive the point home. I said this was 
the best lessons-learned I've ever seen, and the performance of 
the people was brilliant. Were there things that could have 
been better? Yes. One of the reasons that it was brilliant was 
because of the brilliance of our people. They are so good.
    Of course, nobody had the stopwatch going on inside the 
room where he was shooting, so that's why we don't know the 
exact time, as the Secretary indicated, between the first shot 
and the 9-1-1 call. But here's what we do know: There were a 
lot more rounds available, and they took that shooter down and 
the CID agent was handcuffed to him in a matter of moments and 
was with him from that point on.
    Senator Inhofe. Let me commend all of them for the fine 
work they did.
    Admiral Clark. It was incredible.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    I would take 2 seconds just to say that I disagree with 
your comments about Middle Easterners and Muslims and the 
implications of those comments. I wouldn't want to say that 
except while you're here.
    Senator Inhofe. Sure. I understand that. I expected that.
    Chairman Levin. Thank you.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Admiral Clark, you mentioned in terms of the threat a 
generic self-radicalization that would lead to violence. There 
are several different, as you suggest, categories of this, not 
simply Islamic radicals, but a host of others. Is there a 
strategy in DOD to identify these potential categories and to 
essentially work explicitly against them or to at least be 
aware of them?
    Admiral Clark. The first point, there are people in the 
public domain that have said we didn't use the magic term, 
``radical Islamics.'' We didn't do it on purpose. It wasn't 
because we were trying to be politically correct. It was 
because our task was to deal with violence and this was one of 
them. But I don't know how people could read our comments about 
self-radicalization and not understand that this kind of 
radical Islamic behavior is part of that group.
    We said specifically though, the indicators are inadequate. 
Now, having said that, on Friday the Army published the list of 
10, and having something out there is better than nothing. In 
the closed session, I would like to get into this in some 
detail.
    But to say we believe that all of the indicators related to 
violence are not static indicators. We're living in such a 
rapidly changing world, potentially we should be considering 
the establishment of a group that focuses on this full-time. I 
have this whole series of kinds of behaviors that we are 
talking about--criminal, drug, domestic abuse, gang activity, 
supremist ideology, terrorism, school violence, sex crimes, 
sabotage, arson, cyber. We're talking about all of these.
    So I trust that's responsive to your question.
    Senator Reed. It is.
    Mr. Secretary, do you have any comments?
    Mr. West. There is an annex to our report that discusses 
the sources of violence in some detail. It's an example of the 
pieces that our researchers consulted. I think it's very 
informative and I commend it for reading.
    I think that I agree with the Admiral's response. Also, in 
our executive summary, five or six key things that we recommend 
to the Secretary that we pull out from this report is the 
suggestion of a body that will collect the indicators of 
violence, update them in light of current circumstances, events 
in our world, occurrences in our world, and then make them 
available on an updated basis to the commanders and the 
supervisors who need to use them to make their judgments.
    Senator Reed. Let me again turn to the Admiral. Did you 
believe or conclude that there was adequate information coming 
from Walter Reed to Fort Hood with respect to the Major? Was 
there a problem there in terms of letters of reprimand that 
might have been issued or informal reprimands that were never 
fully communicated, so that the commanders at Fort Hood clearly 
weren't able to gauge the seriousness of this individual?
    Mr. West. Senator, I wonder if you would let us discuss 
that with you in the restricted session. It's in the annex.
    Senator Reed. I appreciate that.
    There's another issue and this, I think, can be--I'll let 
you decide--discussed in public, is that, there are many 
indicators about Major Hassan's professional skills, far 
removed from his religious beliefs and his discussions, just 
simple competence, his ability to work with others, those 
things that are fundamental to being an officer in the 
military. Yet he was moved along. I know this question has come 
up. In these critical areas where there are not a surplus of 
individuals, such as mental health professionals, 
psychiatrists, et cetera, is there a double standard in terms 
of, had he been a line officer, an infantry officer, artillery 
officer--forget his radicalization, but just his simple 
performance, would that have gotten him kicked out?
    Mr. West. I think again, Senator, we are prepared to 
discuss that with you, but we would ask you to let us do it in 
the restricted session.
    Senator Reed. I appreciate that.
    Admiral Clark. I would say certainly the heart of what we 
have to say is in the annex. Let me make a comment. We use the 
term ``officership'' in the open report. ``Officership'' was 
intended to mean more than just leadership, and it was our view 
that there were officership deficiencies. In the closed session 
we can talk in great detail about the specifics of that.
    Senator Reed. Just one final question----
    Mr. West. If I might, Senator, I would just add also that 
in our one-page summary discussion, in chapter 1, in the open 
report, we do mention the findings and recommendations, which 
had to do with the Army's application of its policies to the 
perpetrator, but also the fact that there were signs that were 
missed and some that as far as we can tell were ignored. That's 
in the open part of the discussion.
    Senator Reed. Thank you, Mr. Secretary.
    Again, part of this response is going to be training, not 
just commanders, but individual soldiers, sailors, airmen, and 
marines. We have something like that when it comes to a 
traditional threat, which is subversion and espionage, the old 
posters, World War II, ``Loose Lips Sink Ships.'' That emphasis 
is persistent. Do you envision something like that in terms of 
the training elements going forward?
    Admiral Clark. I mentioned just briefly, but I probably 
didn't emphasize it well enough: There clearly has to be an 
outreach program here. I'm not talking about an outreach 
program outside the Department. I'm talking about inside the 
Department. Notice, the Secretary of Defense said on Friday--
and we suggested that effective communication is the order of 
the day here. The Secretary started that process on Friday when 
he said to commanders: This isn't just ho-hum--I'm paraphrasing 
now--ho-hum, regular day-to-day stuff. Commanders should have 
to look past the day-to-day.
    There is no doubt that a very effective training and 
outreach program is part of an effective solution.
    Senator Reed. Thank you very much, gentlemen.
    Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, you have previously served our country well in 
your respective capacities and we appreciate your coming back 
once again to help us deal with an issue that obviously is 
extremely important, at the same time extremely sensitive. So 
thank you for your continuing service.
    In your report, you suggest that the Pentagon ``coordinate 
with the FBI Behavioral Science Unit and the Military Violence 
Unit to identify the indicators specific to DOD personnel, and 
that DOD should use these indicators to develop an assessment 
tool for commanders, supervisors, and professional support 
service personnel to determine when individuals present risks 
for violent behavior.''
    Now, my question is, don't those tools already exist in the 
form of the Army Form 4856, which is the Army Developmental 
Counseling Form, and the Army Form 67-9, which is the Army 
officer evaluation report (OER)? Assuming these documents are 
used and filled out appropriately, shouldn't we be able to 
identify a soldier who may be becoming self-radicalized as we 
think happened here and appropriately address the threat that 
they represent?
    Mr. West. I'm going to let Admiral Clark have a good long 
swing at that because of his extensive experience with OERs and 
the like. But let me say what we were trying to do here, 
Senator. The fact is that there is a very good argument that 
there are tools out there that commanders can use to make the 
assessments they need to make. The question for us, though is, 
are there ways to strengthen what they can do and have we 
learned anything by the incident we faced and will discuss with 
you in closed session, from this incident, about how we can 
shore that up?
    Frankly, things like OERs, there is a culture in the 
Services, all of them, which I think Admiral Clark can speak to 
better than I can, that doesn't always find and report the 
kinds of things that would be better to report. For one reason, 
it may be because the information of some offense, of previous 
drug usage, but there has been a rehabilitation effort, or of 
some other contacts or signs, may have been left to the 
discretion of the commander as to whether to even keep that in 
the record so that it would be recorded in the OER. It never 
gets to the next commander, the next supervisor, and suddenly 
earlier signs are lost in the midst of the pass as they move 
forward.
    We need to shore that up. We said to the Secretary in our 
executive summary, in our five or six big recommendations: You 
need to say to the officer corps of the Nation and all the 
Services that, what you report on these OERs and on things like 
the Service School Academic Evaluation Report (SAER), which 
takes the place of the OER when they're in Service school, you 
need to say that that matters and that it has to be accurate 
and, most of all, complete, so that we can make the judgments 
we need to make.
    Now, that's the thrust of what we're doing here. So, yes, 
reports exist, but they're not being made use of in a way that 
fits what we need in these new and trying times.
    Senator Chambliss. So do you think it's a matter of further 
education of those supervisors that are asking the questions 
and making that report?
    Mr. West. I have an answer to that. It's a question to me, 
but I want to get Admiral Clark involved. My answer is 
education, yes, but also making sure that the standards--and 
maybe that is education--are applied. But there are also some 
recommendations for some further adjustments.
    Senator Chambliss. Admiral Clark?
    Admiral Clark. I don't know the first form that you 
referenced. I have the second forms here in front of me, so I 
can talk specifically to those.
    Senator Chambliss. The 4856 is the Army Developmental 
Counseling Form, which I understand is completed once a 
quarter. The 67-9 is an annual report for enlisted and officer 
personnel.
    Admiral Clark. I don't have that in front of me. But I 
would say that that form and the tools that go with that would 
be great if the person knows what the indicators are. Our 
review suggests that in the area of self-radicalization that 
can be very fuzzy.
    The reason we suggested the FBI is they've already started 
doing some work here. So we're saying to the Secretary, don't 
start from scratch. But also the recommendation to use every 
expert that we know how to get, because we're looking for 
behavioral cues and their subtleties. Once those are known, I 
have every confidence that our leadership, our supervisors, 
will know how to deal with that.
    But my interpretation of that was, we were talking about an 
education and that's why you have to have an outreach program 
that gets the training to the right people, so they have 
understanding of these issues.
    Senator Chambliss. If I'm hearing you right with regard to 
what both of you've said in your statement and your answers to 
the questions thus far, we did a great job responding at Fort 
Hood. Our men and women were courageous, heroic, and did a good 
job. But with the events leading up to the incident, we have 
some major deficiencies.
    In fact, Admiral, you alluded to this, I think you called 
it ``an evolving threat,'' were your exact words that you said 
earlier. Are there any protections or punitive measures that 
are in place to detect, for example, an individual who is one 
of those folks that I would categorize as an evolving threat, 
who might simply join a branch of the military with the 
intention of duplicating what happened at Fort Hood? What have 
we got in place now or what do we need to do to ensure that we 
don't have somebody who has spent the last 6 months in Yemen or 
4 years ago spent 6 months in Yemen with the idea of ultimately 
coming back and having been trained to go in and duplicate this 
event?
    Mr. West. Or who even spent a bunch of years or a month out 
in the wilds of our country becoming radicalized in a different 
way and under different pressures. The question is the same.
    You're right, Senator, there was no failing by those at 
Fort Hood in their response. If there were gaps, it was in us 
as we tried to prepare ourselves to identify those factors that 
would say this person is going to be a problem, we need to act.
    But I think your question was to the Admiral.
    Admiral Clark. I agree completely with what Secretary West 
has said. The thrust of your question gets us to this issue of 
the identification question that I raised this point to. That 
identification question raises things about the manner in which 
we do checks and what's involved there. I think it would be 
smart not to inform an enemy in a public way about my 
particular impressions, and if it's all right with you that we 
talk about that in a closed session. But affirming your 
comment, this is part of the challenge. By the way, should we 
not expect that they're going to use every technique and scheme 
or maneuver that they can figure out?
    Senator Chambliss. Absolutely. That's why we have to, 
number one, get the information. But further, to your point you 
stated earlier, Admiral, is we have to share that information. 
It has to get in the hands of the people who are filling out 
those forms or who are making recommendations relative to an 
individual.
    Thank you, Mr. Chairman.
    Admiral Clark. Mr. Chairman, can I say, since you made that 
last point, I say one more time: Get rid of the barriers, 
inside and outside of the Department, the barriers to 
information flow. Thank you.
    Mr. West. Mr. Chairman, I'm sorry to keep this going, but 
could I add one more thought to that?
    Chairman Levin. Sure.
    Mr. West. Here's another problem that your questions and 
Admiral Clark's response raise, Senator. That is this. Let's 
take religion. The reason we have numbers and records on the 
representation of people of various religions in our forces is 
because they self-identify. They say: This is my religion, I'm 
an Episcopalian, or what have you. What about those who, 
formulating a reason to hide their purposes, don't disclose 
their religion, don't disclose anything that will cause us to 
try to--this is not your term--to try to profile?
    It's the indicators, the behavioral cues, that we have to 
rely on. They are our only way of getting at this in any 
organized and aggressive and effective way.
    Admiral Clark. One more comment, then. So that you know, 
the alleged perpetrator was initially in the Army as an 
enlisted person and he went off and went to school. When he 
came into the Army the first time, he professed to be a member 
of the Islamic faith. When he came in as an officer, he did not 
declare. So all of the indicators aren't right in front of our 
nose. But I have all the statistics here to talk about every 
brand of religion that we know about.
    The reality is that way over half of our people never ever 
declare what--they choose not to declare. So it's not always 
immediately apparent. That's why this is a challenge. But then 
really focusing on the behaviors, and that's what we wanted to 
put the spotlight on. The Department in its guidance and 
instruction to the commanders and all the people in the field 
are going to go by this document, and this document doesn't 
have sufficient guidance about self-radicalization.
    Chairman Levin. Thank you very much.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman, and thank both 
of you for your dedication and time in putting together a very 
well-organized and, I think, insightful report. We appreciate 
it very much.
    So far we haven't really talked about, let's say, patient--
or the evaluation process. Of course, connecting the dots 
requires that kind of an evaluation capability for it to be 
able to tell us anything. In determining behavior, if you don't 
have all the background perhaps you can't establish that.
    Violence in the workplace is not unique now to the 
military. It's part of everyday life, unfortunately, and that 
kind of violence isn't necessarily the result of self-
radicalization in the workforce. So I'm wondering, in 
connecting the dots, as you look for not only self-
radicalization, do you look for other indicators in your 
report? Shouldn't the military look for others, such as marital 
difficulties and other areas that, Admiral Clark, you 
identified in addition? Because self-radicalization is a subset 
of an overall problem when we talk about workforce violence, it 
may be that the military is unique in that respect because it's 
not just about domestic; we also have to face it on our 
military posts around the world.
    So in connecting the dots, I think we understand that not 
all radicals will be engaging in violence and not everyone with 
a different idea will engage in violence. So what are other 
things that can be looked at in performance evaluations that 
would help us detect potential violence coming, not just from 
self-radicalization, but from others as well?
    Admiral Clark. It's a really great question and it drives 
us back to the guidance that's there today. We find that there 
are good indicators in a lot of areas. I mentioned a number of 
these. It includes the two that you talked about, although our 
view is that the whole workplace side is--we tend to focus on 
the kind of violence that takes place away from the workplace, 
not in the workplace, and that's a criticism.
    But let's just talk about the domestic piece, for example. 
Earlier we talked about the requirement for balance. We have 
been dealing with this now for years. So we learned a long time 
ago that if the balance is incorrect we were going to have 
difficulty, because a domestic violence situation always has a 
``she says, he says'' scenario ongoing. So we know how to do 
these things when we identify the behaviors.
    So you're correct, we have them. We have the tools----
    Senator Ben Nelson. We have the tools, right.
    Admiral Clark. This is why we're suggesting that perhaps we 
want to consider the establishment of an organization, a piece 
of the structure, that does this for a living, because you or I 
cannot define a solution set today and everything be perfect 
for the next 3 years. It's going to change.
    Our suggestion is we need to understand the evolving world 
that we're facing. Let us not get sidetracked on just one 
little piece of this. The Secretary's goal was to make the 
workplace a safe environment. Imagine--and Secretary West 
really alluded to this, when the alleged perpetrator--he was an 
officer in the military, he was a field-grade officer. This 
implies trust. He's a medical doctor, implies more trust. He's 
somebody that a person would confide in. We can't have these 
kinds of people turning from the inside on our people and 
destroying the fabric of the institution and what we're all 
about.
    So we are convinced that this then calls for the kind of 
investment that will ensure that we're staying up with the 
adaption problem. This is a challenge, to be adaptive. I'm so 
pleased that the Secretary of Defense addressed it straight-up 
on Friday and said we have to create a more adaptive force.
    Senator Ben Nelson. Secretary West?
    Mr. West. Just as an add-on, in terms of your question, 
what are some of the things that should be indicators, we have 
a whole list of recommendations. Incidentally, in our appendix 
C for purposes of being helpful to you we list all the 
recommendations, the findings and recommendations, and 
something about them, so that it's easier for you to find them 
without having to go all through.
    At about 2.6 or so and all the way through that to 2.10 or 
so, there's a list of things that addresses what you said. For 
example, you said what about medical? Well, so did we. We know 
that the medical indications and medical records are protected, 
and they should be. But we raise the question of whether we 
shouldn't review whether there are ways to make some of that 
history, especially when it pertains to some things I've said 
before--drug abuse and the like--available on a more regular 
basis to those who need to have these indicators.
    Senator Ben Nelson. If you don't have all the dots, you 
can't connect them.
    Mr. West. Exactly.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman, and I do want to 
express my appreciation to you, Mr. Secretary and Admiral, for 
all your service to this country, and obviously being called 
back into service for your extraordinary work in regard to this 
tragic incident.
    I also want to take this opportunity to express my 
condolences to those who lost family members and loved ones 
during this terrible event. It was a horrific event in our 
Nation's history and the fact that it happened at Fort Hood, a 
place where more people have deployed to fight against 
terrorism than any other place, is really heartbreaking. Our 
heartfelt appreciation goes to those first responders who, once 
informed of the situation, as you have noted, not only arrived 
quickly, but showed tremendous professionalism and dedication 
to duty and in doing so saved a lot of lives.
    I want to ask you about a couple of findings in your 
report. One is finding 3.8 of your review, which states: ``DOD 
does not have a policy governing privately-owned weapons.'' 
Your recommendation states that: ``DOD needs to review the need 
for such a policy.'' I guess my question is, can you explain 
what you mean by a privately owned weapons policy?
    Mr. West. There exists, for example at Fort Hood, which 
among other things is a popular place for hunting, so a lot of 
folks come on to hunt--so the effort to have some sort of 
control over guns has to be carefully balanced, the need to 
come on and use it, but also the security of the post. The way 
that works and often works at a number of installations is 
this. First of all, all weapons issued by the U.S. military to 
its personnel are locked in the armory if you're enlisted or 
officer or what have you. They're secured. So on the day of the 
event, the only armed person on the scene until those who were 
part of the security force arrived was the perpetrator.
    The policy works this way there. If you live in the 
barracks, then your privately owned weapon must of course be 
owned--properly registered in accordance with State and Federal 
law and the like, but also need to be registered with the 
commander so that they know what's there. If you live in the 
barracks, it is also secured in the armory. If you live in 
personal quarters on the base, properly registered with the 
commander, you keep them in your home. If you live off the 
base, the only requirement is that they be registered in 
accordance with State and Federal law, because you don't have 
them on the base. If you bring them onto the base, previously 
there was no way to know when that happened if you were a card-
carrying member of the Armed Forces, if you had your 
credentials.
    Now there's going to be a requirement, and I guess there 
always was--to the same rules as anyone bringing privately-
owned weapons onto base: Let us know that you're bringing them 
on, right there at the gate.
    What doesn't exist is any way in which bringing them on and 
concealing them, if you were a credentialed member of the Armed 
Forces, could have been detected. We really don't have the 
answer on how to deal with that, but we do know that it is a 
gap in the protection that was accorded to those that day.
    We know one other thing. The policies vary from post to 
post. So the question we raised is simply this: Give some 
thought, DOD, as to whether you wish to have a DOD-wide policy 
with respect to the bringing and the use of private weapons on 
the post by those who are members of the U.S. military. Fairly 
straightforward.
    Senator Thune. You don't prescribe that. What you've just 
described is the policy at Fort Hood.
    Mr. West. Right. It varies from post to post.
    Senator Thune. It varies from installation to installation, 
and the suggestion is simply that DOD adopt some uniform----
    Mr. West. Consider, consider.
    Senator Thune. Okay. All right, without getting into the 
details of that.
    That brings me to another question, because you have 
described the timing of the incident. News reports have 
indicated that it lasted about 10 minutes. Your report said 2 
minutes and 40 seconds after the initial 9-1-1 call 
installation first responders arrived, 1\1/2\ minutes later the 
assailant was incapacitated, which accounts for about 4 minutes 
and 10 seconds of the timeline, which as you said, is almost 
superhuman in terms of response time. It really is remarkable 
and a great credit to those who responded.
    But could we assume then that there was a time period 
before they got there, if in fact--I think you said 7 or 8 
minutes.
    Mr. West. That was our best estimate, but for the very 
reasons you pointed out, we're not so sure. We just stated the 
best estimate.
    Senator Thune. Okay. Which is still a significant amount of 
time; I guess the question is a follow-up to the previous 
question. But if the soldiers would have been armed at the 
time, in other words allowed to carry small firearms, in your 
opinion could more lives have been saved?
    Mr. West. Might as well give an answer----
    Admiral Clark. Well, they're soldiers. If they had been 
carrying their weapons around on them, it would have been 
different. How different? How can I tell you? What would the 
timeline have been? But of course it would have been different.
    Mr. West. What I was hesitating about is that I thought 
this was a natural lead-in to the active shooter program as 
well, which Admiral Clark spent some time talking about. Maybe 
we didn't go into it in detail, but the answer to your question 
is armed servicemembers could probably have done so. The 
difference, of course, is security personnel trained to take 
down someone in those circumstances differently, and in two 
ways.
    In the past the practice has been clear out all the 
innocents, those who are unarmed, those who are being assailed, 
and then you take down the shooter. That has been the practice 
for law enforcement agencies throughout the United States as 
well. But there has been the advocacy of the response to active 
shooter program, which is more and more becoming the response, 
which is: Train your security people with firearms and then go 
in, and as your first priority, take down the shooter before he 
or she can do more damage to those who are there.
    But the risks are obvious and that's why the emphasis is on 
training. The FBI, who are the experts on this, have cautioned 
that you really need a carefully selected and well-trained 
force to do that. It was done at Fort Hood.
    Senator Thune. They performed extremely well.
    Admiral Clark. May I add one other point? My response was 
brief, almost to the point of being brusque, let me just add. 
It would have made a difference, but if I were a commander 
would that be the first thing that I did, arm all the people on 
the base? That's not what I would do. Would it make a 
difference if some portion of them were armed? Of course it 
would. But the reason I wouldn't just summarily arm everybody 
is because of the fact that it would so change the environment 
that we live in. I don't think that's the immediate solution to 
good order and discipline.
    Senator Thune. I guess in response to that, if, in fact, 
there is going to be some consideration given to a policy, a 
Department-wide policy with regard to firearms, I would hope it 
would not be more restrictive, because I do think these are 
soldiers. These are people who are trained. Clearly, if anybody 
would be prepared, probably not trained exactly in emergency 
response, but people who would be trained and prepared and 
equipped to effectively use a firearm to save other lives, it 
would be someone in the U.S. military. That's my observation.
    So I have some other questions, but I'm out of time. So 
thank you all very much.
    Chairman Levin. Thank you, Senator Thune.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman. Mr. Chairman, may 
I go on record as also objecting to the comment that was made 
by the distinguished Senator from Oklahoma in reference to 
profiling.
    I also want to commend the two distinguished public 
servants here, one of whom I've known since he was a freshman 
at Howard University, and to see him move through the ranks and 
commit all of this service to America is what I anticipated 
when I saw him as a freshman when I was in law school at 
Howard, and then of course seeing him graduate also from Howard 
Law School. So, Secretary West, you have done a tremendous job 
for the people of America and we are very, very grateful to you 
for that.
    Mr. West. Thank you, Senator. Your own lifelong record of 
public service is quite distinguished and I consider your 
compliment that much more valuable. Thank you.
    Senator Burris. Admiral, I appreciate your service as well. 
I just didn't attend school with you.
    I am really seeking to see how we get at the major problem 
that you were tasked to do. I had other questions, but the 
hearing has just provoked some other thoughts. Mr. Secretary, 
you mentioned the fact that when you take an oath of office in 
the military--and I'm just wondering whether or not there's a 
different standard under the constitutional rights that you 
have after you've taken the oath of office. It's something I 
may have been missing because I've never been in the military, 
and I just want to know whether or not a person who has taken 
an oath, there are different standards that they are held to, 
for example, the free speech article or the right to bear arms 
article, which was brought up by Senator Thune. Could you 
comment on that, please?
    Mr. West. I will, and then I think you'll be interested to 
hear the views of someone who has commanded at every level and 
has had to give these instructions to his officers and those 
serving under him.
    Years ago I was the DOD General Counsel, so we tried to 
remain conversant with this for obvious reasons. I was a Judge 
Advocate General officer as well. The basic rule is stated: 
Servicemembers, whether they are officers or enlisted, who come 
into the Services are still citizens of the United States. They 
do not give up their basic constitutional rights and 
protections. They get to speak, especially when they're on 
their own time and not in uniform, freely. They get to 
associate under the same circumstances. They are entitled, if 
they are accused of criminal activity while on Active Duty, to 
a trial with a number of the constitutional protections, not 
all, because, as I think Admiral Clark observed, they do agree 
when they take the oath of office to put some things, as he 
said, on the shelf. For example, when they're in uniform they 
can't just say anything they darn well please.
    I may have said it too broadly. There are lots of things 
you can add in, qualifications. But it's just a fact of life 
and, frankly, when they're on Active Duty in uniform they can't 
just go anywhere at any time to do whatever they please. They 
are under orders. They are under obligations, either as 
officers or as noncommissioned officers, to respond as they are 
directed, to carry out their orders fully. They represent this 
country as well as serving it.
    Now, I've said that way too broadly, I'm sure. But I think 
it gives an overlay. It says yes, they don't ever stop being 
citizens, they don't lose their constitutional protections, but 
there are some limits that can be imposed on them under lawful 
military authority.
    Admiral Clark. Secretary West said all of that like the 
true veteran that he is. It was absolutely perfect. I would 
just add that, so let's say we're having a time--it's the 
political season and people are running for office. A member of 
the Armed Forces is not allowed to show up there in uniform. 
Now, if they choose to do so--and I'll use my words very 
carefully--they will be counseled, to be sure. I would say 
they'll probably be part of a short but exciting conversation, 
is the way I might put it.
    There are other areas. When we're overseas, the first thing 
we tell our sailors is: Remember, you are ambassadors of the 
United States of America. We put limits on the kind of things 
that we expected them to do and things that we clearly expected 
them not to do. So those are the things that we are speaking 
to, and certainly, as Secretary West said so correctly, basic 
constitutional rights are never in question.
    Senator Burris. Thank you, Admiral.
    Another general question that's running through my mind. 
Now, in your work in this short period of time did you seek to 
assess other violent acts that may have taken place on military 
bases, on American soil or military bases, say the incident in 
Iraq where one of the soldiers supposedly snapped and killed 
fellow service persons? Did you look into any of that?
    Admiral Clark. Absolutely. Team one went into great detail 
of policies across the board. They're the group that reviewed 
over 30,000 pages of instructions and policies. It was 
incredible. We called this the omnibus team. It was an 
unbelievable task that they had. They used as a frame of 
reference to look into these special cases and say, now are 
there weaknesses here? Because the Secretary of Defense asked 
us to look for weaknesses in policies, programs, procedures, 
and gaps. So we looked at those, and basically we found that--
this instruction, by the way, that I hold in front of me has 
extensive detail about the questions you raise about the things 
that you can and cannot do. In other words, the prohibited 
activities are outlined here.
    But our team used those particular cases like you cited as 
a springboard and said, are the policies adequate? 
Fundamentally, what we're reporting is that--and let me inject 
this thought. We know that you can't legislate perfect 
behavior. That's not possible. So the question is, are the 
policies fundamentally sound? The areas that we have put a 
focus on in the report, specifically this internal threat is 
the area where we see the greatest need.
    Senator Burris. I just wonder, gentlemen, whether or not in 
your assessment and in your report we're trying to get at 
something through procedures that is almost impossible to 
prevent. It's similar to a suicide bomber, as I would see it, a 
person who is willing to commit his own death. All the policies 
and procedures that we would put in place, all the 
corrections--for example, Mr. Secretary, if you were to have 
some type of procedure to go on base, whether or not you bring 
your private arms on base or not, what happens if the 
commanding officer was to have a problem? Do you think that the 
military police is going to stop a commanding officer at the 
gate and search him for his own private weapon and determine 
whether or not, if he's bringing that weapon on base, if he is 
determined to make some type of violent act or statement?
    I just bring that up as a result of our attempt to try to 
get procedures that are going to be in the place that would 
seek to prevent someone from doing such a violent act.
    Mr. West. That's a very pertinent observation, Senator 
Burris, and it is exactly on point. It is why we have 
emphasized in our report that we can't rely solely on stopping 
someone at the boundary. We have to have looked for the signs, 
for the 100-yard stare, for the examples of tensions or 
difficulties even in a personal life, and we can do this if 
they use government facilities--for the communications with 
extremist persons or organizations on a repeated basis.
    We can look for all those signs. We can look for the signs 
of drug abuse because--and I mention that so often because 
there is some literature that our team one found, incidentally, 
has its report in chapter 2. We looked for those signs--that 
say that past drug abuse, even when corrected, is often linked 
to later outbreaks of violence. So we have to look for what 
Admiral Clark discussed in his opening statement as the 
behavioral cues and indicators, and we must do that over the 
course, say, of the colonel's service, to find them early 
enough so that it doesn't get to the point that he brings his 
weapon onto their base in some crazed effort.
    Now that is the thrust, frankly, of the entire report, and 
thank you for getting right to the heart of it.
    Senator Burris. Mr. Secretary, the question is, can this 
and will this happen again? God knows we don't want it to. But 
think about it.
    Thank you, Mr. Chairman. My time is up.
    Chairman Levin. Thank you, Senator Burris.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    Secretary and Admiral, again to add to my colleagues, thank 
you for the work that you've done. Thank you for your past 
service. Thank you for this service.
    I also want to extend my condolences to the families of the 
Fort Hood soldiers who were killed. We're keeping them in our 
thoughts and our prayers.
    I want to, first of all, just state that I think we all 
agree, and your report certainly says, that this was a failure 
on the front end. We commend the first responders for their 
fantastic work, but this was a failure. I don't want to belabor 
that, because I think it's been talked about, Mr. Chairman.
    But there's a Houston Chronicle article of yesterday, 
Richard Lardner and Calvin Woodward, that I'd ask be submitted 
for the record, which I think details a lot of the failures in 
monitoring Major Hassan along the way, and that something 
should have been done to prevent this.
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator LeMieux. Thank you, sir.
    What I want to talk about is three things, and there are 
questions for you. The first one is to follow up on what 
Senator Thune was talking about concerning soldiers on the base 
carrying weapons. This struck me as well because I recently 
this past week went to four military bases in Florida, from 
Naval Air Station Pensacola, to Tindall, to Eglin, to Hurlbert 
Air Force Base. The thing that you notice different than going 
to a military base in a theater of war, like going to Bagram 
Air Force Base, is that the soldiers and the airmen and the 
sailors aren't carrying weapons. But when you're at Bagram you 
see half of the service men and women carrying their weapons.
    I don't think that this would have happened potentially at 
Bagram Air Force Base for two reasons. One is there would have 
been a huge deterrent to Major Hassan if he knew that the other 
soldiers were carrying weapons. The second thing is, if it 
would have happened, to follow up on Senator Thune's point, 
that 4 minutes of time or whatever the period was where there 
was no first responder there, one of our servicemembers I am 
sure would have picked up their weapon and fired back.
    I hope that you will in your continuing work stress this to 
the Secretary of Defense, because, while I understand the 
Admiral's point about order on the base, there is probably a 
sweet spot here where some of the folks on a base, even in the 
United States of America, should be carrying weapons, maybe 
where there's going to be large groups gathered, I guess like 
where this processing center was happening.
    So I don't know if you have any further comments on that. 
You've already answered Senator Thune's question, but I want to 
make that point. Mr. Secretary?
    Mr. West. I have a comment, and that is this. It has 
happened overseas where people have been carrying weapons. 
We've had incidents in which a soldier has gone berserk and 
started shooting and there were weapons around him; it didn't 
stop it.
    Second, let's assume that everyone's able to carry weapons, 
say at Fort Hood. Well then, for a committed person it wouldn't 
have been necessary to smuggle them in to use them.
    Then third, I guess--well, no. I think first and second is 
enough. If the Admiral wants to add a third, I will let him.
    Admiral Clark. I don't argue with your fundamental point. I 
would just say that as a commander I realized that I was 
responsible for the creation of the environment. So the 
deployed environment is always different than the environment 
at home. So I think there are a lot of things that I could 
figure out how to do before I decided to arm every single human 
being on the base.
    I don't discount at all your point about the degree of 
difficulty for a shooter. But I believe Secretary West has 
accurately responded. We have cases, to be sure, and we have 
been very careful not to define specific single-point dot 
solutions for these cases because, for starters, we did this in 
an extraordinarily short period of time. If we were going to 
then look at all the possible courses of alternative solutions 
for every one of the recommendations we made, we would have 
needed at least 6 months and not the short time we had.
    Senator LeMieux. I understand that. I'm just saying that 
there's a general point. I used the term ``sweet spot'' for a 
reason, not that you would put a gun on every service man or 
woman's side, but that there be some thought about this point, 
because I do think that knowing that someone is bearing arms is 
a deterrent. Maybe it hasn't always been a deterrent, but it 
can be a deterrent. It certainly might have saved 13 people. We 
don't know, but it might have saved some of them.
    The second thing is, in terms of--Senator Collins is going 
to speak in a minute and her Homeland Security and Governmental 
Affairs Committee, along with Senator Lieberman, has talked 
about the need for training for all servicemembers in 
identifying signs of Islamic extremism. I wonder if we don't 
only need to encourage our servicemembers to look for these 
signs and report them, but that we need to do more than that 
and require it.
    I think about something that universities do. I didn't 
attend the University of Virginia, but I understand they have a 
very stringent honor code. The honor code can be broken in two 
ways: one, by violating it; and the second is failing to report 
that someone else violated it. I wonder for your consideration, 
whether or not we should make a suggestion like that, that you 
have an obligation as a member of the U.S. military that if you 
see something that is out of line, to report it. There, if I 
feel like in my service record I'm going to be reprimanded for 
not reporting something--none of us like to tell on our 
colleagues. It's human nature. But I also commend that to you 
as something you could consider, and if you want to comment on 
that I'd appreciate that as well.
    Admiral Clark. I think these are the kind of questions, all 
in pursuit of potential solutions, that the Secretary would 
think is going on, without suggesting whether one is the right 
solution or not. Phase two is to do the drill-down, and they 
couldn't do the drill-down on the whole breadth of things that 
we looked at 30,000-plus pages of directions and policies and 
all of that. Our job was to put the spotlight on the key things 
that they could go do in a hurry. It's my understanding that's 
his expectation for phase two.
    Senator LeMieux. The third and final point I have is, we've 
heard this phrase, ``connect-the-dots.'' I heard it yesterday 
when we had a Commerce, Science, and Transportation Committee 
hearing with Secretary Napolitano and Director Leitner about 
the Christmas Day bombing attempt. That's, obviously, the great 
struggle, is connecting the dots. You mentioned, Admiral, 
perhaps having some other special unit or division of people 
who would try to do that.
    That seems to be smart to me, that you have someone who's 
going to look through all of the information, not be tasked 
with maybe other jobs, but be tasked with trying to--I don't 
know if it's an internal affairs function or if it's just a 
function to make sure that someone is out there looking at 
these reports that are filled out on different service men and 
women. I know there's a lot of people in the U.S. military.
    But we have really good technology in this country, 
technology that's being used by the private sector. I don't 
know if these reports are scanned. I don't know if they're 
entered on a computer. I don't know if someone can use cloud 
computing and some of these new techniques to do searches.
    We've failed again on the almost terrible tragedy on 
Christmas Day because of a misspelling of a name and other 
things that failed in our intelligence and the way that we 
process, gather, and evaluate intelligence. One thing I just 
might commend to you in your further discussions with the 
Secretary is, if you do establish one of these units, talking 
to people in the private sector who develop this wonderful 
technology and see if it might be an aid for helping keep our 
service men and women safe.
    Admiral Clark. May I comment? We say in the report that 
we've been having arguments about who owns what pieces of 
information. We've been having those discussions long enough. 
It's time to move on. So without defining what that solution 
is, I don't know how a commander can possibly connect the dots 
if he doesn't have all the dots in his dot kit. ``Dot kit'' may 
be the right term.
    But also, I bring attention to this point. We told the 
Secretary this isn't just interagency. This is inside the 
Department as well. Challenge the assumptions on who has all of 
the pieces of information. The commanders will be better 
equipped and we know how brilliant they are when they're given 
the tools.
    Mr. West. Actually, I think the organization that you're 
thinking about that we recommended was one that's designed to 
collect all the indicators, keep them catalogued, update them 
regularly, and make them available to commanders and those who 
have to make decisions. Your idea has, I think, to do with 
connecting dots on specific individuals, where those things 
come up. That's an interesting concept and it's not one that we 
necessarily focused on. Thank you for that.
    Senator LeMieux. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator LeMieux.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Thanks very much 
to Secretary West and Admiral Clark for the service that you've 
given in doing this report, and of course throughout your 
lives. The attack of November 5, 2009, was a tragedy and we're 
very grateful for the efforts that you've made along with DOD 
personnel working with you in this review to ensure that such a 
tragedy doesn't happen again.
    The Homeland Security and Governmental Affairs Committee--
and Senator Collins and I are here--has been investigating the 
Fort Hood shootings to assess the information the government 
had prior to the shootings and the actions it took in response 
to that information. I can tell you that, even at this early 
stage of our investigation, it's become apparent to us that 
DOD's approach to the threat of servicemembers who adopt a 
violent Islamist extremist ideology needs to be revised.
    Senator Collins and I sent a letter last week along those 
lines to Secretary Gates. I know there's sensitivity on this 
about the other Muslim Americans who are serving honorably in 
our military, but I honestly think that a more focused 
approach, an open approach on Islamist extremism, will protect 
the overwhelming majority of Muslim Americans serving in the 
military, who are serving honorably, and will maintain the 
bonds of trust that are so necessary in a military context 
among servicemembers of all religions.
    It seems to me in the Fort Hood case that there were many 
indicators that Nidal Hassan was motivated to commit these 
murders in furtherance of his own violent Islamist extremist 
ideology. But I must say respectfully that your report only 
tangentially mentions that particular threat. In contrast, your 
review recommends generally that the Department ``identify 
common indicators leading up to a wide range of destructive 
events, regardless of the individual's identity.''
    I understand again DOD's need to be sensitive to the 
religious beliefs of all its servicemembers and employees. But 
I think it's also critically important, and I don't see it in 
your report, as much as I admire so many of the recommendations 
you've made, that we recognize the specific threats posed by 
violent Islamist extremism to our military.
    So I wanted to ask you first, how do you think the 
Department and the Services should address the specific threat 
of violent Islamist extremism and if you want to respond to my 
concern generally about this? I will add that I remember being 
disappointed, troubled, after the Fort Hood murders when 
General Casey's first response described the incident as a 
force protection failure, which I suppose in one sense it was. 
But it was also a terrorist attack in my opinion. To a certain 
extent, the title of your report, ``Protecting the Force,'' 
continues that emphasis, as opposed to a focused emphasis on 
the problem we're facing now, just as we focused earlier, after 
Fort Bragg, on the very real problem explicitly of white 
supremist extremism.
    So I welcome your response generally and particularly.
    Mr. West. I was the Secretary of the Army at the time of 
the Fort Bragg, Senator, and because I was given a little more 
leeway I was the one who ordered the review that occurred. We 
operated under the same constraints then that--the folks we 
appointed operated under the same constraints then that we 
operate under now. That is, they had an ongoing military 
justice investigation and in fact, because the victims were 
civilians and the acts occurred off post in Fayetteville, still 
to this day one is struck. I mean, the servicemembers required 
two civilians to kneel and shot them execution-style.
    So there were several, multiple criminal investigations, 
and so that task force that we appointed could not get into 
what might have been criminal aspects or anything that would 
have imperiled the trials. We operated under that same 
constraint.
    Senator Lieberman. Okay, so that's the reason you thought 
you couldn't be more explicit about Islamist extremism?
    Mr. West. What we had to say, a lot of it is in the 
restricted annex. But no, I think to your second point we had 
is, respectfully, yes, it was and yes, it is a force protection 
issue. That is the way in which it was handed to us and that is 
the way in which we had to approach it.
    In that case, it is every kind of extremism, every kind of 
opportunity for violence, that we, if we're going to have this 
one shot, Admiral Clark and I, to make recommendations to DOD, 
have to be sure to cover. So yes, we went for indicators, for 
cues and the like, but we did not exclude any source of 
violence and we specifically did not exclude the source that 
comes from radical Islamic belief associated with the actions 
that go with it.
    Admiral Clark has some thoughts I know he wants to add. We 
talked about it more than once. So I'm going to stop here, but 
that's my brief oversight of how we approached it.
    Senator Lieberman. Let me just, before we go to Admiral 
Clark, just follow up while I'm thinking about it, because 
after those heinous murders at Fort Bragg in 1995 the Army, as 
General Keane testified to us, issued a pamphlet, training 
materials, that are quite directly oriented towards supremist 
activities and other racial extremism, and specifically 
detailed some of the key indicators to look for in white 
supremists, which I thought was exactly the right thing to do, 
of course.
    I guess the question now is do you think the Services 
should issue a similar type of pamphlet with the same kinds of 
recommendations to address the threat of violent Islamist 
extremism, because that is the reality. Of course--do you want 
to respond to that?
    Mr. West. Only that I think you make a good point.
    Senator Lieberman. Okay, thank you.
    Admiral, please.
    Admiral Clark. Good to see you again, Senator.
    Senator Lieberman. You too, Admiral.
    Admiral Clark. In my opening statement I talked about 
violence and I made the point that some have indicated that we 
did not address the kind of violence that you're speaking to, 
radical Islamic fundamentalism and the behavior that goes with 
that. The point that I made is, yes, we did. Because Secretary 
Gates wrote us a set of terms of reference that talked about 
violence in the workplace and the people, including people 
hurting themselves, we decided to go after it in that way.
    But we used the term ``radicalization'' and ``self-
radicalization'' dozens of times in the report, which we 
intended to make clear we're talking about every kind of 
violent behavior, including this. Then we go on to then specify 
in our recommendations--and I made the point about, here's the 
DOD directive that talks about prohibited activities. Our point 
is this document is inadequate to the task when dealing with 
self-radicalized individuals.
    So that's what we're talking about. I could not agree with 
you more completely that we need the outreach program. 
``Outreach,'' I mean we have to reach out and let people know 
what the positions are and where the red lines are in 
behaviors, and then with that goes all of the training that you 
talked to. So I made that a matter of my prior testimony and 
I'm in complete alignment with that view.
    Senator Lieberman. I appreciate that clarification. In my 
opinion, because--of course there's a concern about force 
protection generally. But because this is a unique new threat 
we're facing, I think the more explicit we are about it the 
clearer it's going to be and the better off we're going to be, 
because, as somebody said, some of the regulations earlier had 
to do with almost Cold War scenarios, and then the obvious 
response to the white supremist killings. Now, unfortunately, 
we've had now two cases, Akbar in Kuwait and Hassan. 
Unfortunately, the way things are going, we'll probably have 
some more. So for the protection of the force, I think we have 
to be really explicit about what this threat is.
    My time is up. Thank you.
    Chairman Levin. Thank you very much, Senator Lieberman.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Gentlemen, it's good to see you both. Thank you for your 
continued public service.
    Senator Lieberman, the chairman of our Homeland Security 
and Governmental Affairs Committee, has asked exactly the 
questions that I planned to ask, which is not a surprise 
because we've been working together on the whole issue of 
homegrown terrorism and the threat of Islamist extremism.
    I do want to follow up a bit on the point that Senator 
Lieberman just made, because I was struck when I read the 
public part of your report by the decision to omit the term 
``Islamist extremism'' from the public report, and it troubled 
me. It troubled me because it appeared to contrast sharply with 
the approach that DOD has taken in the past. Your report 
recommends that the Army focus on a broad range of motivations 
for violence rather than focusing on specific causes. But 
that's not what the Department and the Army did after the 
racially motivated murders associated with Fort Bragg back in 
1995. The 1995 guidance is striking because it squarely faces 
the problem, and I believe that's why it was so effective. It 
sent a clear message that white supremists had no place among 
our troops.
    I believe we need to send a similarly clear message. 
Indeed, in 1996, in response to the Fort Bragg incident--and 
obviously, Mr. Secretary, you're more familiar with it than I 
since you were involved in correcting the problem at the time--
but in response, commanders were specifically advised to be 
aware of ``indicators of possible extremist views, behaviors, 
or affiliations.'' They were told to look for specific signs, 
such as reading materials or the use of a personal computer to 
visit extremist sites. These signs were geared toward 
identifying white supremists within the ranks.
    What Senator Lieberman and I have suggested in our letter 
to Secretary Gates is that same kind of focus, squarely 
admitting what the problem is. So my worry is that the 
perception of your report for those who only get to read the 
public part will be that we're not facing the problem squarely 
the way we did in the mid-1990s, and it worked. The guidance 
was excellent. It involved training our commanders or enlisted 
troops, and it appears to have been very successful.
    So, without presuming to speak for my chairman, Senator 
Lieberman, that's what we're suggesting, that we squarely face 
this threat to our troops.
    So I would end what I realize has been more of a comment 
than a question by urging you to more explicitly address this 
specific threat. It doesn't ignore the fact that there are 
other sources of violence. But in fact, family violence, 
suicide prevention, sexual assault, all extremely important 
priorities for us, but they are different in their nature than 
the threat from Islamic extremists.
    So I'd ask you to comment particularly on whether we should 
have specific training to recognize the signs of radicalization 
in this area. Mr. Secretary and then Admiral Clark.
    Mr. West. It's almost impossible to have a comment, 
Senator. That was a very powerful statement, along with Senator 
Lieberman's statement. You of course put me a little bit under 
the gun by pointing out that that's what we did in the Army 
when that occurred.
    I won't even spend time on the distinctions. I think there 
are some clearly. Being a white supremist carries no overtones 
of constitutional protections of any sort, whereas a religion 
is always--I know I'm going to be accused of being politically 
correct here, but so what--is always an area where we have to 
go carefully.
    For example, religious extremism, violent, aggressive 
religious extremism, is a source of threat to our soldiers, 
sailors, marines, airmen, and coastguardsmen, whatever the 
religious source. We need to be careful, and we tried to be 
careful when we did this, to make sure that we turn the 
military's attention inward, since the person that was quoted 
earlier as having talked about the Cold War, that was Secretary 
Gates. What he was pointing out was something we said, which is 
we have been focused on the external threat. Now we have to 
look at the internal threat, from within, from one of our own.
    As I said before, this is our one shot at it, Admiral Clark 
and I, and we want to make sure that we look at the indicators, 
and religious extremism, whatever its source, is an indicator, 
and there are a whole bunch of things to look at. I think that 
description is right. The fact, as you both make it, that it is 
Islamic religious extremism, I think it is a point worth 
making. I think the Secretary and everyone will hear it and 
they will react accordingly. But that becomes part of the 
history of this discussion.
    Senator Collins. Admiral Clark.
    Admiral Clark. It's so nice to see you again, Senator. It's 
been a privilege for me to be engaged working on this task. 
When the Secretary of Defense asked me to do this, I did so 
because I believed it was so important.
    Let me say that within 5 minutes of it going public that I 
was going to co-chair this task force with Secretary West, my 
very good friend General Jack Keane was calling on the phone 
and telling me in great detail--I was driving down the road on 
my cell phone, and he was explaining to me how they did it. He 
happened to have been in command down there at Fort Bragg and I 
was commander of the Second Fleet and we were friends and 
worked together down there then.
    So I've been mindful of his point of view on this since the 
very, very beginning and was in complete alignment with it.
    To build upon my response to Senator Lieberman, I'm just 
going to give you Vern's view here. We talked about this a lot, 
how do we shape this. If we shape this as--if the report was 
full of reference to radical Islamic fundamentalist activity 
and behavior, some people would have read it that it was going 
to be all about that. The Secretary of Defense clearly gave us 
another task. He gave us the task to deal with violence in the 
workplace across the board, and because he did we made the 
decision that we were going to handle it the way we have 
presented it, but when questioned about--we frankly, Senator, 
didn't know how people were going to be able to misread the 
references to self-radicalization. We thought that that was 
going to be pretty clear, but maybe it wasn't clear enough.
    Our focus then, and one of our primary recommendations is 
the guidance on these behaviors is inadequate, and the way you 
make it adequate is you decide what the red lines are going to 
be, you inform your people, you do everything that you know how 
to do--and that's called training--to ensure that our people 
know how to respond. That's what those of us who've had the 
privilege to command are charged to do. We talk about 
officership in the report and so forth. That's what leaders do 
and that is what is required.
    Senator Collins. Thank you.
    Chairman Levin. Thank you very much, Senator Collins.
    I was listening to Senator Lieberman and Senator Collins 
with the suggestion that we address a specific threat, since it 
obviously is a specific threat. It is appropriate that our 
leaders be directed as to how to address that threat, just the 
way they were, I guess, in the 1990s with the white 
supremacists, but to make it clear and to make it certain that 
it's not viewed as an anti-Muslim effort, but rather an effort 
to address violent extremism, radical Islamic extremism, it 
would be very essential, it seems to me, wise that people who 
were involved in preparing that kind of instruction include 
Muslims, because obviously that would be important in terms of 
knowledge of the threat, but also important in terms of making 
it clear that is not anti-Muslim. 99 percent of Muslims are not 
people who are engaged in these kind of activities, and to make 
it clear it's not this kind of an effort, which I think is a 
legitimate effort, that Senator Lieberman and Senator Collins 
talk about. That is a legitimate effort to make it clear that 
it is not aimed at Muslims, but aimed at violent Islamic 
radical extremism, and it's important that Muslims be 
significantly involved in that direction.
    I was wondering if Senator Lieberman or Senator Collins 
might want to comment on that suggestion.
    Senator Lieberman. Mr. Chairman, I think that's an 
excellent suggestion. In some ways you've given voice to it. 
But it would be a real omission, as I hear you talk, if it 
wasn't done, in other words if Muslims weren't involved.
    One of the things in this fact situation that troubles me, 
and I suppose why I feel like we have to talk explicitly to one 
another about this threat, including most of all to have in the 
conversation Muslim Americans. Obviously, as Senator Levin 
said, 99 percent plus are not extremists or terrorists.
    I worry as I look at this fact situation in Hassan's case 
that part of the reason that commanders and others who after 
the attacks at Fort Hood were spewing out to the media these 
signs that looked back and said he showed he was really turning 
in a very extremist, anti-American direction, that people 
didn't voice them or record them because of political 
correctness and, even more than political correctness, the 
sensitivity that we all have about religious discussions.
    But the truth is, the best thing that could happen here, 
it's a great place for it to begin, in the military, is to have 
a real open discussion about this. Of course, for it to be a 
real discussion it has to include Muslim Americans. So I think 
your suggestion--in other words, I think that if Muslim 
Americans had been seeing--I don't know what the facts were 
about this--some of the things that Hassan was saying at Walter 
Reed, for instance, I think they would have been alarmed, 
because this doesn't reflect what they think.
    Therefore, Mr. Chairman, I think your suggestion is really 
an excellent one. Thank you.
    Senator Collins. Mr. Chairman, if I could just respond as 
well. I too think that your suggestion is an excellent one and 
it's very consistent with the approach that Senator Lieberman 
and I have advocated on the Homeland Security and Governmental 
Affairs Committee. In fact, in our letter to Secretary Gates 
where we suggest more training, we point out that updating the 
approach would help to protect from suspicion the thousands of 
Muslim Americans who are serving honorably in the U.S. military 
and help to maintain the bonds of trust among servicemembers of 
all religions and enhance understanding.
    So the steps that we have recommended would clearly benefit 
from the inclusion and active involvement of Muslim Americans, 
and that's what we intended. But I also think it has benefits 
for Muslim Americans serving, so that other servicemembers have 
a better understanding of Islam. So I'm in complete accord with 
what you suggest. I think that is along the lines of what we 
were proposing as well.
    I would ask that we share with our two distinguished 
witnesses today the recommendations that Senator Lieberman and 
I have made in our January 13 letter to Secretary Gates, 
because as you go forward with your work it may be of value to 
you as well, we hope.
    Chairman Levin. Thank you. One other thing that seems to me 
would be appropriate, and I don't know if you've addressed 
this, but it's sort of along this line: that our policies also 
should be very clear about why it is unacceptable, why it's not 
allowed, prohibited, to have taunting or harassment of people 
because of their religious views, as, according to the public 
record, occurred in the Hassan case.
    I don't know if that's true and I can't comment on your 
annex, but it seems to me this is part and parcel. Religious 
tolerance does not mean tolerance for violence and extremism. 
It doesn't mean that, as I pointed out maybe an hour ago. 
That's not what we're tolerant of. But what we are tolerant of, 
and proud of it, is other people's religious views. As part of 
that, it has to be importantly pointed out in the military that 
that means we do not accept taunts, graffiti about ``ragheads'' 
or what have you, about anyone's religious views. I don't know 
if that is part of your recommendations here, that that be 
clear as well in terms of guidance, but it seems to me it's an 
important part of it.
    Admiral Clark. Let me address it. It's very well covered in 
the prohibited behaviors and activities.
    Chairman Levin. You mean currently?
    Admiral Clark. Currently. It's very well spelled out. So 
I've spoken only to what's not in this document. What's in this 
document is 100 percent right, and what we have said is this 
document does not have the piece in it regarding self-
radicalized behavior.
    Mr. Chairman, I so want to appreciate the fact that you 
have collectively recognized the very effective and loyal 
service of thousands of Muslims. Somebody accused me of being 
politically correct. I don't care. The way you said it is 
exactly right and I appreciate it.
    Chairman Levin. One thing to make this even more complex. 
When we talk about connecting the dots, and we have to do a far 
better job of connecting the dots--I believe that's the 
greatest failure in this and the other incidents that we've 
been discussing in various committees--there are counter-
indicating dots that complicate the work, including with Major 
Hassan. It's not just those dots which in my view would have 
made folks suspicious, had they known about it, of what his 
potential was, but there are some dots that go in the other 
direction in terms of--and these are in the public record--what 
his patients thought of him, which was very high. You have to 
throw those dots into the mix, too, for people who are going to 
be judging him.
    You have a record here of a number of his assessments were 
not just negative--that should have been included in the 
record, by the way; I happen to agree with you totally--but 
there's also some highly positive, not politically correct for 
that reason, but positive, assessments of his capability.
    I just think it's important that, since we're trying to 
take a general view of this, that while it's critically 
important to do a far better job of collecting dots, that we 
also recognize in terms of the task in front of us that there 
are some dots that are going to be in that mix which make it 
very unclear what you do with the dots which seem to point in 
one direction, because there are some dots that point in the 
other direction, even with him. They've not been focused on, 
obviously, but there are some counter-indicators here which are 
fairly clear as well.
    Finally, Admiral, you talk about reducing--``eliminating'' 
I think is your word--the barriers, get rid of the barriers to 
information flow. I think generally you're right, and there's 
barriers here which clearly should not be there. So I agree 
with your premise. Are there any barriers that you'd want to 
maintain, either privacy barriers or barriers--for instance, 
you talked about I think prior drug problem or an addiction 
problem which has been overcome. Some of that's not passed 
along now. If it's been overcome, I think there's some instinct 
in commanders that maybe we should just let certain things not 
be passed along which would unfairly perhaps hurt somebody's 
career path if they've overcome a problem.
    Are there any barriers that you might want to keep?
    Admiral Clark. There may be, and if I were responsible for 
the policy review I would then look at all of the potential 
courses of action and make that kind of determination. But let 
me give you an example of the manner in which I might decide to 
handle the case you just suggested, because, as you correctly 
pointed out, by regulation there is some documentation that is 
not allowed to proceed from command to command.
    We could figure out how to compartmentalize information. We 
do it in the intelligence world all the time. The briefer comes 
into the room with the material that's in the pouch, that only 
certain people get to see that information. It would be very 
possible to have information that might be vital to connecting 
the dots that is currently not passed, passed in a way that's 
compartmented so that a select group of people had access to 
the information.
    I believe that that's inherent in achieving the correct 
balance, Secretary West and I would not want anything that was 
said here to imply in any way that the balance between these 
issues isn't--it's very, very important. You have addressed it 
correctly. This is a challenge.
    One of the hallmarks of the U.S. military is we grow and 
develop people. I've had dozens of these interviews with 
people: Okay, you're getting a new job, this is turning over a 
new leaf, this is the time to go get it. We've seen people turn 
their lives around. This is one of the great things about our 
institution.
    So clearly these are issues that the policymakers have to 
come to grips with. Our task was put the spotlight on policies, 
weaknesses, gaps, and that's what we have tried to do. I do 
believe that there may be places where barriers should be 
retained in some way.
    Chairman Levin. Maybe for some purpose.
    Admiral Clark. For some purpose.
    Chairman Levin. Maybe in a promotion.
    Admiral Clark. Exactly.
    Chairman Levin. It's different from whether it's a 
strategic issue.
    Admiral Clark. Exactly. But what I'm suggesting is that 
people who are responsible for these policy decisions know what 
the vital dots look like, know where they come from. As the 
report says and I said in my earlier testimony, the time is 
passed for us to be having these turf wars on who owns the 
information.
    Chairman Levin. I think we couldn't agree with you more, 
and this is a major challenge for all of us in the Senate and 
the House and our committees and, even more importantly 
probably, for the executive branch.
    Senator Lieberman, do you want to add anything?
    Senator Lieberman. No, thanks.
    Chairman Levin. We thank you for all the work you're doing, 
not just here but on the Homeland Security and Governmental 
Affairs Committtee. That committee is doing critically 
important work.
    We're now going to move to a closed session of the 
committee. We'll meet in room 222 in Russell, our committee 
room. In accordance with restrictions placed on access to the 
restricted annex, attendance will be limited to Senators and 
committee professional staff.
    We again thank our witnesses, not just for their work in 
this regard, but for their lifelong work on behalf of our 
Nation.
    The committee will stand adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                        indicators for violence
    1. Senator Akaka. Mr. West, research into the various predictors 
and causes of violence span many disciplines and offer varying 
perspectives regarding why some people resort to violence. These range 
from biological, to religious, social, and political factors. The four 
recommendations contained in 2.1 ``Protecting the Force: Lessons from 
Fort Hood, Report of the Department of Defense (DOD) Independent 
Review, January 2010'' (Independent Review) coalesce around the 
identification of contributing factors of violent actions and the 
reporting of behavioral indicators of violent actors. How must the DOD 
adequately update and strengthen programs, policies, processes, and 
procedures that address the identification of indicators for violence 
without violating the civil liberties that are enjoyed by the military 
members of the Armed Forces as well as DOD civilians?
    Mr. West. The Department should thoughtfully consider a wide range 
of options and exercise due caution to avoid infringing on civil 
liberties. There are risk-assessment tools available for the 
Department's consideration that would enhance DOD's ability to deal 
with potential internal threats without compromising fundamental civil 
liberties. In particular, DOD should draw on the expertise of the law 
enforcement community, including the Federal Bureau of Investigation 
(FBI), which has developed methodologies to help understand the 
motivations and behaviors of violent offenders. My understanding is 
that the FBI has already been assisting DOD in understanding these 
issues.
    We recommend that DOD continue to coordinate with the FBI 
Behavioral Science Unit, under their comprehensive analysis of military 
offenders project to identify behavioral indicators that are specific 
to DOD personnel that would be used to help protect against internal 
threats.
    We also recommend that the Department develop tools and programs 
that would educate DOD personnel about indicators of possible violent 
behavior and help them determine the risk that such behavior might 
occur.

                        religious accommodations
    2. Senator Akaka. Mr. West, recommendation 2.7 of the Independent 
Review states that the DOD should promptly establish standards and 
reporting procedures that clarify guidelines for religious 
accommodations. How must the DOD adequately clarify policy regarding 
religious accommodations to help commanders distinguish appropriate 
religious practices from those that might indicate a potential for 
violence or self-radicalization while balancing the civil liberties 
that are enjoyed by the military members of the Armed Forces as well as 
DOD civilians?
    Mr. West. The Department should issue clear guidance to provide a 
common source for commanders, supervisors, and chaplains to distinguish 
appropriate religious practices. The Department should exercise due 
caution to avoid infringing on civil liberties. Clear standards would 
ensure consistent mechanisms across the military departments, assisting 
commanders and supervisors in assessing behavior and initiating action, 
if appropriate.

                         health care providers
    3. Senator Akaka. Admiral Clark, healthcare providers experience 
traumatic stress and provider burnout and are stigmatized when seeking 
treatment for stress and burnout. Other career fields, such as the 
Chaplaincy and their support personnel, have programs that assess 
stress and burnout. Recommendation 5.3 of the Independent Review states 
that the DOD should review its requirement to de-stigmatize healthcare 
providers who seek treatment. What steps should the DOD undertake to 
ensure the resiliency and recovery of healthcare providers so that they 
can continue to provide members of the Armed Forces and their families 
with the best healthcare?
    Admiral Clark. In order to ensure that healthcare providers can 
continue to provide outstanding care for warriors and their families as 
well as receive outstanding care themselves, DOD can take several steps 
to make certain that a good balance is being struck between health care 
for the warrior and health care for the provider. DOD's current 
deployment model, for example, should be reviewed to assess whether it 
provides sufficient continuity of care for redeploying servicemembers 
while not delaying recovery for health care providers who have been 
assigned to deploying combat units. DOD has a number of policies in 
place designed to guarantee that U.S. military forces receive top 
quality care and we are looking for further ways to integrate these 
policies and properly resource them to positively affect the 
Department's ability to continue delivering the best care available to 
all military members and their families.

                              officership
    4. Senator Akaka. Admiral Clark, the joint opening statement refers 
to the fact that several individuals failed to apply professional 
standards of officership regarding the alleged perpetrator and that you 
recommended the Secretary of Defense forward these issues of 
accountability to the Secretary of the Army. How should the DOD address 
what the Independent Review characterizes as the failure to apply 
professional standards of officership and to make the reflection of an 
individual's total performance an accepted and standard practice 
throughout the Services?
    Admiral Clark. The conduct of Major Hasan's colleagues and former 
supervisors remains under review, and it would be inappropriate to 
comment at this time. Consistent with the recommendations of the 
Independent Review Panel, the Secretary of Defense referred issues of 
individual accountability to the Secretary of the Army for review and 
action as appropriate. Secretary McHugh assigned senior military 
leaders to investigate further, to assess accountability, and, as 
appropriate, to take final action. This process remains ongoing.
                                 ______
                                 
              Questions Submitted by Senator Kay R. Hagan
                   actions not taken by army officers
    5. Senator Hagan. Mr. West and Admiral Clark, several officers 
failed to comply with existing Army policies when taking actions 
regarding the perpetrator, Major Hassan. There were also significant 
discrepancies between Major Hassan's performance in official records 
and his actual performance during training, residency, and fellowship. 
It seems that medical officers failed to include his overall 
performance as an officer, and instead, focused on his academic 
performance.
    We have to ensure that performance appraisals accurately provide a 
holistic overview of professional, ethical, and personal career 
development of all personnel. Incomplete performance appraisals prevent 
us from recognizing vital warning signs in dealing with internal 
threats. They also prevent leaders from being alert to psychological 
and emotional risk factors of servicemembers and civilians. How should 
Secretary of Defense Gates and Secretary of the Army McHugh ensure 
accountability for those failures by some medical officers that did not 
apply appropriate judgment?
    Mr. West and Admiral Clark. Consistent with the recommendations of 
the Independent Review Panel, the Secretary of Defense referred issues 
of individual accountability to the Secretary of the Army for review 
and action as appropriate. Secretary McHugh assigned senior military 
leaders to investigate further, to assess accountability, and, as 
appropriate, to take final action. This process remains ongoing.

    6. Senator Hagan. Mr. West and Admiral Clark, why did Major 
Hassan's colleagues and former supervisors wait until after the Fort 
Hood incident to speak about the content of his extremist religious 
views?
    Mr. West and Admiral Clark. The conduct of Major Hasan's colleagues 
and former supervisors remains under review, and it would be 
inappropriate to comment at this time. Consistent with the 
recommendations of the Independent Review Panel, the Secretary of 
Defense referred issues of individual accountability to the Secretary 
of the Army for review and action as appropriate. Secretary McHugh 
assigned senior military leaders to investigate further, to assess 
accountability, and, as appropriate, to take final action. This process 
remains ongoing.

    7. Senator Hagan. Mr. West and Admiral Clark, what did the Army's 
higher authorities do when complaints were sent up the chain?
    Mr. West and Admiral Clark. The conduct of Major Hasan's colleagues 
and former supervisors remains under review, and it would be 
inappropriate to comment at this time. Consistent with the 
recommendations of the Independent Review Panel, the Secretary of 
Defense referred issues of individual accountability to the Secretary 
of the Army for review and action as appropriate. Secretary McHugh 
assigned senior military leaders to investigate further, to assess 
accountability, and, as appropriate, to take final action. This process 
remains ongoing.

                    interagency information sharing
    8. Senator Hagan. Mr. West and Admiral Clark, I agree that in order 
to protect the force, our civilian leaders and commanders in the field 
need immediate access to sensitive information regarding 
servicemembers' personal contacts, connections, or relationships with 
organizations promoting radicalization and violence. I encourage the 
Army and the DOD at-large to adopt the recommendation of the 
Independent Review to increase service representation on Joint 
Terrorism Task Forces and coordination with the FBI. What suggestions 
and recommendations can you offer to facilitate enhanced cooperation 
and information sharing between executive department agencies like the 
FBI, National Counterterrorism Center, Office of the Secretary of 
Defense, and the Army Secretariat?
    Mr. West and Admiral Clark. Liaison and information sharing 
agreements already exist among the executive department agencies you 
mention, but they can be strengthened. Many of these liaison and 
information sharing agreements currently focus on antiterrorism 
cooperation, potentially precluding the agencies from sharing sensitive 
information pertaining to a servicemember's propensity to commit 
violent acts. DOD should review the scope of these agreements to 
determine where they can appropriately be expanded and strengthened to 
enhance a commander's ability to assess his or her personnel.
    We were pleased to learn that Secretary Gates approved our 
recommendation to establish a single organization within DOD to manage 
its participation in the Joint Terrorism Task Forces. We also are 
pleased the Secretary approved our recommendation to revise 
significantly DOD's Memorandum of Understanding with the FBI.

    9. Senator Hagan. Mr. West and Admiral Clark, what challenges do 
you foresee?
    Mr. West and Admiral Clark. First, revising interagency agreements 
is often a time-consuming process, particularly in the case of 
agreements that involve multiple interagency partners. Second, 
comprehensively accounting for all existing agreements will likely also 
be a time-consuming process. For example, in some cases, each Service 
has a separate agreement with a particular Federal agency on 
information sharing. Determining where these agreements differ, what 
the gaps are between them, and whether it is necessary or desirable to 
bring them under a single umbrella will be time consuming.

    ensuring that force protection policies counter internal threats
    10. Senator Hagan. Mr. West and Admiral Clark, one of the most 
significant takeaways I got out of the Independent Review was that DOD 
force protection policies are not optimized for countering internal 
threats, and reflect a lack of awareness of the factors and indicators 
we have to be focused on in addressing internal threats.
    I agree that we need to provide commanders with comprehensive 
guidance and a full range of indicators designed to effectively 
identify and address internal threats within the U.S. military 
establishment. Do you anticipate challenges in the military departments 
developing such guidance and indicators?
    Mr. West and Admiral Clark. We do not doubt that the military 
departments are committed to working to develop such guidance and 
indicators. That said, this is a complex undertaking, and we anticipate 
that it will be difficult to develop comprehensive guidance and a full 
range of indicators to address internal threats. The Department should 
thoughtfully consider a wide range of options and exercise due caution 
to avoid infringing on civil liberties. There are a number of 
recommendations that specifically address internal threats, including 
2.1 (developing a risk assessment tool for commanders, supervisors, and 
professional support service providers to determine whether and when 
DOD personnel present risks for various types of violent behavior), 
2.15 (review prohibited activities and recommend necessary policy 
changes), and 3.2 (commission a multidisciplinary group to examine and 
evaluate predictive indicators relating to pending violence and provide 
commanders with a multidisciplinary capability). It is our 
understanding that the Fort Hood Follow-On Review is addressing these 
recommendations to improve the Department's capacity to protect against 
internal threats.

    11. Senator Hagan. Mr. West and Admiral Clark, how will those 
indicators be coordinated with combatant commanders?
    Mr. West and Admiral Clark. Our understanding is that the Follow-On 
Review program includes representatives from all the military 
departments and the Joint Staff, which coordinates input from the 
combatant commands. As such, the combatant commands have a voice in 
determining how potential indicators will be coordinated with them. One 
of our recommendations was that the Department needs to develop 
standardized guidance regarding how military criminal investigative 
organizations and counter-intelligence organizations will inform the 
operational chain of command, e.g. the combatant commander. We 
understand the final report for the Follow-On Review will address this 
specific issue.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                           potential threats
    12. Senator Burris. Mr. West and Admiral Clark, are there other 
potential internal threats that our current system has failed to 
identify?
    Mr. West and Admiral Clark. We are not aware of other potential 
internal threats that the current system has failed to identify. 
However, our findings clearly show that DOD and Service programs that 
provide guidance concerning observation of personal behavior do not 
focus on internal threats. As such, one of our recommendations is to 
develop a list of behaviors that may be indicative of an insider threat 
and to integrate the disparate programs designed to defend against 
these threats.

    13. Senator Burris. Mr. West and Admiral Clark, how can we identify 
potential sympathies which are counter to our national interests?
    Mr. West and Admiral Clark. In the Independent Review report, we 
recommended DOD promptly establish standards and reporting procedures 
that clarify guidelines for religious accommodation. If requests for 
religious accommodation that compete with mission requirements were 
recorded and shared among commanders, supervisors, and chaplains, it 
would help establish a baseline from which to identify deviations 
within the Services and DOD.

                            failures to act
    14. Senator Burris. Mr. West and Admiral Clark, in your 
investigation, were there other examples of a failure to act on 
performance reports and passing on the problem?
    Mr. West and Admiral Clark. The conduct of Major Hasan's colleagues 
and former supervisors remains under review, and it would be 
inappropriate to comment at this time. Consistent with the 
recommendations of the Independent Review Panel, the Secretary of 
Defense referred issues of individual accountability to the Secretary 
of the Army for review and action as appropriate. Secretary McHugh 
assigned senior military leaders to investigate further, to assess 
accountability, and, as appropriate, to take final action. This process 
remains ongoing.
                                 ______
                                 
               Question Submitted by Senator David Vitter
                            recommendations
    15. Senator Vitter. Mr. West and Admiral Clark, in Chapter 2 of the 
Independent Review, when reviewing barriers and constraints on taking 
action, you state that the existing authority to address potentially 
violent behaviors ``is likely insufficient if an employee represents an 
imminent threat.'' However, your recommendations do not state specific 
changes to regulations that would enable the DOD and the Services to 
quickly adapt and address potential threats. Certainly identifying 
threats is important and critical to saving lives and preventing 
terrorist acts, but we must also prevent those threats after 
identifying them and cannot let bureaucratic polices stop us from 
averting terrorism. What specific policy changes at the company and 
battalion command level would you recommend to shorten commanders' 
response time in dealing with an immediate threat?
    Mr. West and Admiral Clark. In Chapter 4 of the Independent Review 
report, we identified several ways that the Department can better 
prepare its military communities to respond to emergencies, including 
developing a case study based on the Fort Hood incident to be used in 
installation commander development and on-scene commander response 
programs. But we also cannot discount the importance of responding to a 
potential threat immediately, before it becomes a violent action. 
Recommendation 2.1 specifically addresses updating policies and 
programs that would enable the DOD and Services to assess potentially 
violent behaviors. This includes developing a risk assessment tool for 
commanders, supervisors, and professional support service providers to 
determine whether and when DOD personnel present risks for various 
types of violent behavior. Recommendation 2.15 deals with reviewing 
prohibited activities and recommending necessary policy changes. For 
example, DOD can update DOD Instruction 1325.06, Handling Dissident and 
Protest Activities Among Members of the Armed Forces, by providing 
commanders and supervisors the guidance and authority to act on 
potential threats to good order and discipline. We defer to the 
Department on other policy changes it might identify and implement to 
improve commanders' response times in dealing with an immediate threat.

    [Annex: The Report of the DOD Independent Review 
``Protecting the Force: Lessons from Fort Hood'' follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    [Whereupon, at 12:00 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
